No. 20-____
IN THE

Supreme Court of the United States
————
MELISSA BELGAU, et al.,
Petitioners,
v.
JAY INSLEE, IN HIS OFFICIAL CAPACITY AS
GOVERNOR OF THE STATE OF WASHINGTON, et al.,
Respondents.
————
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit
————
PETITION FOR A WRIT OF CERTIORARI
————
JAMES G. ABERNATHY
Counsel of Record
c/o FREEDOM FOUNDATION
P.O. Box 552
Olympia, Washington 98507
(360) 956-3482
JAbernathy@
freedomfoundation.com
Counsel for Petitioners
February 11, 2021
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D. C. 20002

QUESTIONS PRESENTED FOR REVIEW
In Janus v. Am. Fed’n of State, Cnty., & Mun. Emps.,
Council 31, this Court held that states and unions
cannot take money from public employees’ wages unless
the employees first waive their First Amendment right
not to subsidize union speech. See 138 S. Ct. 2448,
2486 (2018). The Ninth Circuit failed to apply this
standard below and, instead, held that (i) evidence of
union membership alone, rather than proof of a knowing
waiver, shows affirmative consent to a state’s deduction
of union dues or fees from its employees’ wages, and
(ii) unions do not act under “color of law” for the
purposes of 42 U.S.C. § 1983 when they collectively
bargain with states to authorize and enforce restrictions
on employees’ right not to subsidize union speech, and
then work with states to deduct money from employees’
wages. In so doing, the court sanctioned Washington’s
practice of preventing its employees from exercising
their right under Janus not to subsidize union speech
without proof they knowingly waived that right.
The questions presented are:
1. Whether it violates the First Amendment for a
state and union to seize union dues or fees from
employees’ wages without proof the employees
waived their First Amendment right not to
subsidize a union and its speech.
2. Whether a union engages in conduct under color
of law for the purposes of 42 U.S.C. § 1983 when
it collectively bargains with a state to authorize
and enforce restrictions on public employees’ First
Amendment right not to subsidize union speech,
and then works with a state to deduct union
dues or fees from employees’ wages.

(i)

ii
PARTIES TO THE PROCEEDING AND
RULE 29.6 STATEMENT
Petitioners are Melissa Belgau, Donna Bybee, Richard
Ostrander, Katherine Newman, Miriam Torres, Gary
Honc, and Michael Stone. Petitioners were the plaintiffappellants in the court of appeals.
Respondents are Jay Inslee, in his official capacity
as governor of the state of Washington; David
Schumacher, in his official capacity as Director of the
Washington Office of Financial Management; John
Weisman, in his official capacity as Director of the
Washington Department of Health; Cheryl Strange, in
her official capacity as Director of the Washington
Department of Social and Health Services; Roger Millar,
in his official capacity as Director of the Washington
Department of Transportation; Joel Sacks, in his official
capacity as Director of the Washington Department of
Labor and Industries;1 and the Washington Federation of State Employees, AFSCME, Council 28, a labor
union. Respondents were defendant-appellees at the
court of appeals.
A corporate disclosure statement is not required
under Supreme Court Rule 29.6, as no Petitioner is a
corporation.

1

Employees work for different state agencies but are all
represented by the Washington Federation of State Employees,
AFSCME, Council 28 under a single collective bargaining agreement
negotiated with the state of Washington. Employers are collectively
referred to as “the State.”

iii
LIST OF PROCEEDINGS
There are no other court proceedings “directly related”
to this case within the meaning of Rule 14(1)(b)(iii).

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED FOR REVIEW ......

i

PARTIES TO THE PROCEEDING AND
RULE 29.6 STATEMENT ...............................

ii

LIST OF PROCEEDINGS...................................

iii

TABLE OF AUTHORITIES ................................

xi

OPINIONS BELOW ............................................

1

JURISDICTION ..................................................

1

CONSTITUTIONAL AND
STATUTORY PROVISIONS INVOLVED ......

1

STATEMENT OF THE CASE ............................

1

A. This Court recognized in Janus that
public employees have a First Amendment
right not to subsidize a union and its
speech ........................................................

2

B. The State and WFSE agreed to restrict
employees’ First Amendment Janus rights
using new payroll deduction authorization cards and a narrow escape period
policy .........................................................

2

C. Public employers and unions commonly
use narrow escape period policies to
restrict when employees can exercise
their right under Janus not to subsidize
a union and its speech ..............................

5

(v)

vi
TABLE OF CONTENTS—Continued
Page
D. The State and WFSE prevented Petitioners
from exercising their Janus rights based
on alleged “consent” obtained in payroll
deduction authorization cards signed before
Janus .........................................................

6

E. Proceedings Below ....................................

7

REASONS FOR GRANTING THE PETITION....

9

I. This Court Should Grant Review To
Make Clear That A Voluntary And
Knowing Waiver of the First Amendment
Right Not To Subsidize A Union And Its
Speech Is Required Before States and
Unions Seize Money From Public
Employees’ Wages, And That Evidence
Of Union Membership Alone Does Not
Satisfy This Standard ...............................

11

A. The Ninth Circuit’s decision conflicts
with Janus because a state cannot
seize union dues from the wages of
its employees who become union
members without proof they waived
their First Amendment right not to
subsidize a union and its speech.........

12

B. The Ninth Circuit’s decision conflicts
with Janus because a state cannot
seize union fees from the wages of
objecting, non-union employees after
they resign union membership without
proof that they waived their right not
to subsidize a union and its speech ....

15

vii
TABLE OF CONTENTS—Continued
Page
II. This Court Should Grant Review to Hold
That Unions Are Liable Under 42 U.S.C.
§ 1983 When They Work Jointly With
States To Violate Public Employees’ First
Amendment Rights By Seizing Money
From Their Wages Without The Affirmative Consent Required By The First
Amendment ...............................................

18

A. The Ninth Circuit’s conclusion that
WFSE was not a state actor conflicts
with this Court’s decision in Janus v.
AFSCME, Council 31, 138 S. Ct. 2448
(2018) ...................................................

19

B. The Ninth Circuit’s conclusion that
WFSE was not a state actor conflicts
with the Seventh Circuit Court of
Appeals’ decision on the same question in Janus v. AFSCME, Council 31,
942 F.3d 352 (7th Cir. 2019) (Janus
II), on remand ......................................

20

C. The Ninth Circuit’s conclusion that
WFSE was not a state actor conflicts
with this Court’s decision in Lugar v.
Edmondson Oil Co., 457 U.S. 922, 937
(1982) ...................................................

21

viii
TABLE OF CONTENTS—Continued
Page
III. The Questions Presented Are of Exceptional Federal Importance And Warrant
Review Because the Decision below
Sanctions Widespread Unconstitutional
Restrictions On Public Employees’ First
Amendment Rights, Incentivizes Future
Harsher Restrictions, And Leaves Large
Numbers of Public Employees’ Rights
Susceptible to Abuse .................................

25

IV. This Case Is An Excellent Vehicle to
Address the Dangers Posed By The
Decision Below ..........................................

29

CONCLUSION ....................................................

31

APPENDIX
APPENDIX A: OPINION, Court of Appeals
for the Ninth Circuit (September 16, 2019) ..

1a

APPENDIX B: ORDER
ON
CROSS
MOTIONS FOR SUMMARY JUDGMENT,
District Court for the Western District of
Washington (February 15, 2019) ...................

21a

APPENDIX C: CIVIL JUDGMENT, District
Court for the Western District of Washington
(February 19, 2019) ........................................

48a

APPENDIX D: ORDER, Court of Appeals
for the Ninth Circuit (October 26, 2020) .......

50a

ix
TABLE OF CONTENTS—Continued
Page
APPENDIX E: CONSTITUTIONAL
STATUTORY PROVISIONS:

AND

U.S.C.A. Const. Amend. I ..............................

51a

U.S.C.A. Const. Amend. XIV .........................

51a

42 U.S.C.A. 1983 ............................................

53a

RCW 41.80.100 (July 28, 2019) .....................

54a

WA H.B. No. 2751 (2018) ...............................

56a

APPENDIX F: Memorandum of Understanding between the state of Washington
and Washington Federation of State Employees, 2017-2019 Collective Bargaining
Agreement, Article 40 (July 6, 2018) ..............

66a

APPENDIX G: Memorandum of Understanding between the state of Washington
and Washington Federation of State Employees, 2017-2019 Collective Bargaining
Agreement, Article 40 (August 10, 2017) .......

74a

APPENDIX H: Collective Bargaining Agreement, Article 40: Dues Deduction/Status
Report .............................................................

76a

APPENDIX I: Washington Federation of
State Employees/AFSCME, Council 28/AFLCIO Payroll Deduction Authorization Card
(January 6, 2017) ...........................................

81a

APPENDIX J: Washington Federation of
State Employees/AFSCME, Council 28/AFLCIO Payroll Deduction Authorization &
Maintenance Card (March 21, 2018) .............

83a

x
TABLE OF CONTENTS—Continued
Page
APPENDIX K: STIPULATION REGARDING FACTS FOR CROSS-MOTIONS FOR
SUMMARY JUDGMENT, District Court
for the Western District of Washington
(November 30, 2018) ......................................

85a

APPENDIX L: AMENDED COMPLAINT
FOR INJUNCTIVE RELIEF, DECLARATORY JUDGMENT, AND DAMAGES –
CLASS ACTION, District Court for the
Western District of Washington (August 23,
2018) ...............................................................

94a

xi
TABLE OF AUTHORITIES
CASES

Page(s)

Abood v. Detroit Bd. of Ed.,
431 U.S. 209 (1977) ......................... 2, 10, 25, 28
Adams v. Teamsters Union Local 429,
No. 1:19-CV-336, 2020 WL
1558210 (M.D. Pa. Mar. 31, 2020) ...........

28

Baro v. AFT,
No. 1:20-cv-02126 (N.D. Ill.) .....................

28

Belgau v. Inslee,
359 F. Supp. 3d 1000
(W.D. Wash. 2019) .................................... 1, 8, 9
Belgau v. Inslee,
975 U.S. 940 (2020) ..................................passim
Chicago Teachers Union v. Hudson,
475 U.S. 292 (1986) ..................................

27

Cohen v. Cowles Media Co.,
501 U.S. 663 (9th Cir. 1971) ..................... 12-13
College Savings Bank v. Florida Prepaid
Postsecondary Ed. Expense Bd.,
527 U.S. 666, 119 S. Ct. 2219,
144 L.Ed.2d 605 (1999) .............................

11

Curtis Publishing Co. v. Butts,
388 U.S. 130, 87 S. Ct. 1975,
18 L.Ed.2d 1094 (1967) ............................. 11, 12
D.H. Overmyer Co. Inc. v. Frick Co.,
405 U.S. 174 (1972) ................................... 12, 23
Dennis v. Sparks,
449 U.S. 24 (1980) .....................................

23

xii
TABLE OF AUTHORITIES—Continued
Page(s)
Fischer v. Governor of New Jersey,
--- Fed.Appx. ---, No. 19-3914, 2021
WL 141609 (3d Cir. Jan. 15, 2021)...........

28

Fuentes v. Shevin,
407 U.S. 67 (1962) .....................................

23

Harris v. Quinn,
573 U.S. 616 (2014) ...................................

17

Hoekman v. Ed. Minn.,
No. 18-cv-1686 (D. Minn. 2020) ................

28

Jackson v. Galan,
868 F.2d 165 (5th Cir. 1989) .....................

23

Janus v. Am. Fed’n of State, Cnty., &
Mun. Emps., Council 31,
138 S. Ct. 2448 (2018) ..............................passim
Janus v. Am. Fed’n of State, Cnty., &
Mun. Emps., Council 31,
942 F.3d 352 (7th Cir. 2019) ............... 10, 20, 21
Johnson v. Zerbst,
304 U.S. 458 (1930) ............................... 2, 11, 12
Knox v. Serv. Employees Int’l Union,
Local 100,
567 U.S. 298, 132 S. Ct. 2277 (2012) ........

11

LaSpina v. SEIU Pennsylvania State
Council,
--- F.3d ---, No. 19-3484, 2021
WL 137742 (3d Cir. 2021) .........................

28

Lugar v. Edmondson Oil Co., Inc.,
457 U.S. 922 (1982) ..................................passim

xiii
TABLE OF AUTHORITIES—Continued
Page(s)
Lutter v. JNESO et al,
No. 1:19-cv-13478 (D. N.J. 2020) ..............

28

Mitchell v. W.T. Grant Co.,
416 U.S. 600 (1974) ...................................

23

Mandel v. SEIU Local 73,
No. 1:18-cv-08385 (N.D. Ill. 2018) ............

28

Nance v. SEIU,
No. 1:20-cv-03004 (N.D. Ill. 2020) ............

28

North Georgia Finishing, Inc. v.
Di-Chem, Inc.,
419 U.S. 601 (1975) ...................................

23

Pellegrino v. New York State United Teachers,
No. 18CV3439NGGRML, 2020 WL
2079386 (E.D.N.Y. Apr. 30, 2020) ............

28

Prokes v. AFSCME 5,
No. 0:18-cv-2384 (D. Minn. 2018) .............

28

Sniadach v. Family Fin. Corp.,
395 U.S. 337 (1969) ...................................

23

Troesch v. CTU,
No. 1:20-cv-02682 (N.D. Ill. 2020) ............

28

Tulsa Professional Collection Services, Inc.
v. Pope,
485 U.S. 478, 108 S. Ct. 1340,
99 L.Ed 2d 565 (1988) ...............................

21

Zeigler v. AFSCME Council 13, et al.,
No. 2:20-cv-00996 (W.D. Pa. 2020) ...........

28

xiv
TABLE OF AUTHORITIES—Continued
CONSTITUTION

Page(s)

U.S. Const. amend. I ...................................passim
U.S. Const. amend. XIV ............................. 1, 8, 18
STATUTES
28 U.S.C. § 1254(l) ........................................

1

28 U.S.C. § 1291 ...........................................

9

28 U.S.C. § 1331 ...........................................

9

28 U.S.C. § 1343 ...........................................

9

28 U.S.C. § 1367 ...........................................

9

42 U.S.C. § 1983 ..........................................passim
28 U.S.C. § 2201 ...........................................

9

28 U.S.C. § 2202 ...........................................

9

Cal. Gov’t Code § 1153(g)-(h) .......................

5

Colo. Rev. Stat. § 24-50-1111(2) ...................

5

Del. Code Tit. 19 § 1304) ..............................

5

Haw. Rev. Stat. § 89-4(c) ..............................

5

5 Ill. Comp. Stat. § 315/6(f) ..........................

5

115 Ill. Comp. Stat. § 5/11.1(a) ....................

5

Nev. Rev. Stat. § 288.505(1)(b) ....................

5

N.J. Stat. §52:14-15.9e) ................................

5

Or. Rev. Stat. § 243.806(4)(b) .......................

5

Or. Rev. Stat. § 243.806(6) ...........................

5

RCW 41.80.100 (July 28, 2019) ...................passim
RCW 41.80.100(2)(d) (July 28, 2019) ...........

4

xv
TABLE OF AUTHORITIES—Continued
Page(s)
RCW 41.80.100(2)(g) (July 28, 2019) ........... 4, 12
RCW 41.80.100(3) .........................................

3

RCW 41.80.100(3)(a) ....................................

4

OTHER AUTHORITIES
U.S. Census Bureau; “State and Local Government: Employment and Payroll Data
(June 2020)”, available at https://www2.
census.gov/programs-surveys/apes/datase
ts/2019/2019_state_local.xls (last visited
February 10, 2021)....................................

27

OPINIONS BELOW
The opinion of the U.S. Court of Appeals for the
Ninth Circuit is reported at 975 F.3d 940 (9th Cir.
2020) and reproduced at App., infra (“Pet. App.”), 1a20a. The Ninth Circuit order denying rehearing en
banc is reproduced at Pet. App. 50a.
The opinion of the U.S. District Court for the Western
District of Washington is reported at 359 F. Supp. 3d
1000 (W.D. Wash. 2019) and reproduced at Pet. App.
21a-47a.
JURISDICTION
The Ninth Circuit entered judgment on September
16, 2020. It denied a petition for rehearing en banc on
October 26, 2020.
On March 19, 2020, in light of the ongoing public
health concerns related to COVID-19, this Court extended
the deadline to file petitions for writs of certiorari to
150 days from the date of an order denying a timely
petition for rehearing.
This Court has jurisdiction under 28 U.S.C. § 1254(1).
PROVISIONS AND STATUTES INVOLVED
The constitutional provisions and statutes involved
are set forth in the appendix to this petition: the First
Amendment to the U.S. Constitution; the Fourteenth
Amendment to the U.S. Constitution; 42 U.S.C. § 1983;
and pre-amended and amended RCW 41.80.100. Pet.
App. 51a-65a.
STATEMENT OF THE CASE
This case challenges Washington’s practice of authorizing and enforcing restrictions on its employees’ First
Amendment right under Janus not to subsidize a

2
union and its speech, and seizing union dues and fees
from its employees’ wages without proof that they
voluntarily and knowingly waived that right.
A. This Court recognized in Janus that
public employees have a First Amendment
right not to subsidize a union and its
speech.
This Court held in Janus that public employees
have a First Amendment right not to subsidize a union
and its speech, overruling Abood v. Detroit Bd. of Ed.,
431 U.S. 209 (1977), which had held compelled union
fee regimes to be constitutional. See Janus, 138 S. Ct.
at 2486. The Court further held it unconstitutional for
a state and unions to deduct or collect union dues or
fees from employees’ wages without affirmative consent
demonstrating that employees waived that First
Amendment right. Id. The Court emphasized that
“such a waiver cannot be presumed.” Id. (citing Johnson
v. Zerbst, 304 U.S. 458, 464 (1930)).
B. The State and WFSE agreed to restrict
employees’ First Amendment Janus rights
using new payroll deduction authorization cards and a narrow escape period
policy.
Anticipating this Court’s decision in Janus, the
state of Washington and the Washington Federation
of State Employees, AFSCME, Council 28 (“WFSE”)
agreed to amend the 2017-2019 Collective Bargaining
Agreement (“CBA”) covering Washington’s state employees. Pet. App. 7a-8a, 74a-75a. In a Memorandum of
Understanding (“MOU”) dated August 10, 2017, the
State and WFSE authorized restrictions that would
prevent employees from later exercising the First
Amendment rights this Court would recognize in

3
Janus. Specifically, they agreed to require the State to
“honor the terms and conditions” of new payroll
deduction authorization cards, which for the first time
restricted when employees could stop subsidizing WFSE.
Id. at 74a, 83a-84a, 86a.1 The new cards included
union membership provisions and allowed employees
to resign their membership at any time but compelled
them to continue paying dues-equivalent union fees as
objecting nonmembers until a narrow, ten-day escape
period occurring only once a year. Id. at 83a. Absent a
timely objection during that period, the cards would
renew automatically. Id. As of 2018, the State and
WFSE had gotten over 16,000 WFSE-represented
public employees to sign these cards. Pet. App. 88a.
The cards said nothing about a (then) soon-to-beacknowledged First Amendment right not to subsidize
union speech or the Janus case pending in this Court
at that time. Id. On the contrary, the cards explicitly
stated that, should employees decline union membership, they would be compelled to pay a nonmember fee
as a condition of employment pursuant to the agency
fee requirement in the version of RCW 41.80.100(3)
effective at that time. Id. at 62a-63a, 84a.2

1

Payroll deduction authorization cards prior to August 10,
2017 did not contain restrictions on when employees could stop
subsidizing WFSE (to the extent permitted under Washington’s
agency fee law at the time). Pet. App. 81a. The State agreed to
accept the new cards as the prior “authorization” (for state union
dues and fee deductions) required by the version of RCW
41.80.100(3) effective at that time. Id. at 62a-65a.
2

This language appears in cards employees signed upon hiring
prior to August 2017 and the new cards signed shortly before
Janus. One example each is included in the appendix. Pet. App.
81a, 84a.

4
After Janus, rather than inform employees of their
newly-acknowledged rights, the State and WFSE
agreed to amend the 2017-2019 CBA a second time to
continue restricting employees’ ability to exercise their
Janus rights. Id. at 66a-73a, 86a. In a MOU dated July
6, 2018, the State and WFSE removed the CBA’s
agency fee provision, but again agreed pursuant to
RCW 41.80.100(3)(a) to continue to honor “the terms
and conditions” of the payroll deduction authorization
cards as the “written authorization” to dues and fee
deductions required by that statute – regardless
whether employees signed the cards before or after
Janus. Id. at 73a, 62a. The State also agreed to distribute the cards to employees, id. at 66a, and cease the
deductions only upon “confirmation from the Union”
that the terms of the cards had been honored. Id. at
73a. The Washington Legislature explicitly codified
these policies into law when it amended RCW 41.80.100
on July 28, 2019.3 Like the MOUs here, the current
statute authorizes, but places no limits on, restrictions
on employees’ First Amendment rights and does not
require that employees be informed of those rights.
Nowhere in this process did the State take it upon
itself to notify employees of their newly-recognized
constitutional rights, or require WFSE to do so; nor did
WFSE ever take steps to inform employees of those
rights. Instead, in the face of this Court’s decision in
Janus to recognize expanded constitutional freedoms
3

“An employee's request to revoke authorization for payroll
deductions must be. . .in accordance with the terms and
conditions of the authorization” and “[t]he employer shall rely on
information provided by the exclusive bargaining representative
regarding the authorization and revocation of deductions.” See
RCW 41.80.100(2)(d) and (g). Id. at 54a-55a. These provisions
continue to be applicable to putative class members.

5
for individual public employees, the State and WFSE
worked together to protect WFSE’s pecuniary
interests by inducing employees to restrict rights they
did not know they had.
C. Public employers and unions commonly
use narrow escape period policies to
restrict when employees can exercise
their right under Janus not to subsidize a
union and its speech.
Washington and WFSE are not the only governmental entity and union that have employed such methods
before and after Janus to suppress employees’ exercise
of their constitutional rights under Janus, as evidenced by the host of cases across the country
involving these policies. See id. at 19a. Additionally,
since this court issued Janus, states throughout the
country have enacted statutes that authorize and
enforce restrictions on when employees can choose
to stop subsidizing union speech. These include
California (Cal. Gov’t Code § 1153(g)-(h)), Nevada
(Nev. Rev. Stat. § 288.505(1)(b)), Oregon (Or. Rev.
Stat. § 243.806(4)(b) and (6)), Hawaii (Haw. Rev. Stat.
§ 89-4(c)),4 Colorado (Colo. Rev. Stat. § 24-50-1111(2)),
Illinois (5 Ill. Comp. Stat. § 315/6(f)) and 115 Ill. Comp.
Stat. § 5/11.1(a)), New Jersey (N.J. Stat. §52:14-15.9e),
and Delaware (Del. Code Tit. 19 § 1304). These
statutes impose no limit on restrictions on employees’
exercise of their Janus rights and do not require
public employers or unions to notify employees of
their rights. In short, states and unions across the
country have taken measures to protect union interests
by preventing public employees from learning
4

Hawaii’s statute took effect shortly before Janus on April 24,
2018. See Haw. Rev. Stat. § 89-4(c).

6
of and exercising their newly-acknowledged First
Amendment rights under Janus.
D. The State and WFSE prevented Petitioners
from exercising their Janus rights based
on alleged “consent” obtained in payroll
deduction authorization cards signed
before Janus.
Petitioners Melissa Belgau, Donna Bybee, Richard
Ostrander, Katherine Newman, Miriam Torres, Gary
Honc, and Michael Stone (“Employees”) are Washington
state employees who were prevented by the State and
WFSE from exercising their Janus rights pursuant to
the scheme described above.
The State forced Employees to be exclusively represented by WFSE and pay, at a minimum, agency fees
to fund WFSE’s speech. Pet. App. 62a-64a, 86a, 88a.
Employees became WFSE members in this context
shortly after being hired (between May 2005 and
January 2017). Id. at 6a, 61a-64a, 88a-89a. In the
months before this Court’s Janus decision (between
November 2017 and April 2018), WFSE leveraged the
threat of compelled agency fees and its own status
as exclusive bargaining representative to induce
Employees into signing the new restrictive payroll
deduction authorization cards that the State
authorized and agreed to enforce. Id. at 7a, 83a-84a,
87a-88a.5 However, within days after Janus, Employees

5

The new cards contain language suggesting that employees
who were already WFSE members must sign them to remain
WFSE members, and thus avoid losing the ability to vote on their
employment contract. Pet. App. 83a-84a. (“YES! I want to be a
union member.”). In fact, however, WFSE did not require members
to sign the new cards to remain members; nor did WFSE offer
employees new consideration in the form of new or increased

7
learned of and attempted to exercise their right under
Janus not to subsidize WFSE and its speech by
resigning their union memberships and objecting to
the deduction of any union dues or fees from their
wages. Id. at 8a, 89a. Neither the State nor WFSE
honored Employees' objections.
Instead, WFSE processed their membership resignations and withdrew their membership benefits, but
pursuant to RCW 41.80.100, the amended 2017-2019
CBA, and the cards Employees signed before Janus,
the State and WFSE prevented Employees from exercising their Janus rights by continuing to deduct
“union dues” from Employees’ wages over their objections as nonmembers until each Employee’s next
escape period – the last of which expired in April 2019.
Id. at 8a, 90a.
The State and WFSE continue to apply these policies under current RCW 41.80.100 to putative class
members who have resigned union membership and
objected to union dues and fee deductions, but who
have been, or continue to be, prevented from exercising their Janus rights based on payroll deduction
authorization cards signed before Janus. Pet. App.
14a-16a, 54a-55a, 104a.
E. Proceedings Below
On August 2, 2018, Employees filed this class action
lawsuit on behalf of themselves and similarly situated
individuals in the U.S. District Court for the Western
District of Washington against the State and WFSE,
seeking to enjoin the continued deduction of union fees
from their wages as nonmembers and, inter alia,
membership benefits in exchange for restricting their right not to
subsidize WFSE as nonmembers. Id. at 83a-84a, 87a-88a.

8
compensatory damages from WFSE in the form of all
dues and fees deducted from their wages in violation
of the First and Fourteenth Amendments. Id. at 8a,
112a-115a.6 Employees argued that the deductions
were unconstitutional because they never voluntarily
and knowingly waived their First Amendment right
under Janus not to subsidize union speech. Id. at 8a,
112a-115a. Employees claimed that RCW 41.80.100
and the 2017-2019 CBA (and its amendments) were
unconstitutional because they authorized and required
the State to deduct union dues and fees from their
wages based on “authorization” falling short of the
affirmative consent required by the First Amendment,
i.e., without a waiver of their First Amendment Janus
rights. Id.
On stipulated facts, Pet. App. 85a-93a, the district
court denied injunctive relief and granted summary
judgment in favor of the State and WFSE, finding that
“Janus does not apply” to Employees because they had
joined WFSE and were, therefore, not entitled to a
knowing waiver of their First Amendment rights. Id.
at 44a. The district court also found that WFSE could
not be liable under 42 U.S.C. § 1983 because unions
are not state actors when they collectively bargain
with states to authorize restrictions on employees’
right not to subsidize union speech, and work together

6

Employees seek repayment of union dues deducted from their
wages going back to the limitations period, because neither the
State nor WFSE can show that, at any point, Employees voluntarily, knowingly, and intelligently waived their right under
Janus not to subsidize union speech. Pet. App. 116a. Alternatively,
Employees seek repayment of union fees deducted from their
wages post-Janus after they resigned their union memberships.
Id.

9
with states to deduct union dues or fees from employees’ wages. Id. at 40a-41a.
The Ninth Circuit affirmed, finding that evidence
of union membership alone, rather than proof of a
voluntary and knowing waiver, showed consent for the
State to deduct money from Employees’ wages and
remit it to WFSE – not only while Employees were
union members but also post-Janus as nonmembers
after they attempted to exercise their Janus rights. Id.
at 16a-20a. The court reasoned that employees who
join a union do not enjoy Janus’ protections because
“Janus does not address [the] financial burden of
union membership.” Id. at 18a. The court also quickly
concluded without analysis in its final paragraph
that Employees remained “subject to a limited payment
commitment period” after Janus as objecting nonmembers even in the absence of a waiver. Id. at 20a.
The court also affirmed the district court’s conclusion
that WFSE was not a state actor. Id. at 14a.7
REASONS FOR GRANTING THE PETITION
The Ninth Circuit found that evidence of union
membership alone, rather than a voluntary and knowing waiver, shows that employees consent to union
dues and fee payments, and that Janus’ protections do
not extend to public employees who become, or once
were, union members. Id. at 16a-20a. This conflicts
with this Court’s clear language in Janus, which requires
employees to waive their First Amendment right
under Janus not to subsidize union speech before a
state deducts union dues or fees from their wages. See
7

The district court had jurisdiction of Employees’ case under
28 U.S.C. § 1331, 42 U.S.C. § 1983, 28 U.S.C. § 1343, 28 U.S.C.
§§ 2201 and 2202, and 28 U.S.C. § 1367. The Ninth Circuit had
jurisdiction over this action under 28 U.S.C. § 1291.

10
138 S. Ct. at 2486. Additionally, the Ninth Circuit’s
holding that unions are not state actors conflicts with
Janus and other Supreme Court precedent. It also
creates a split with the Seventh Circuit Court of
Appeals on the same issue. See Janus v. Am. Fed’n of
State, Cnty., & Mun. Emps., Council 31, 942 F.3d 352,
356-57 (7th Cir. 2019) (“Janus II”).
The questions presented for review are of critical
importance because the decision below eviscerates
Janus’ protections against compelled speech, and presents important federal questions concerning Janus’
application to policies widely practiced across the
country. Rather than allowing Janus to end the
“practical problems and abuse” wrought by the Abood
regime, Janus, 138 S. Ct. at 2460, the decision below
resurrects these unfortunate benchmarks, and
reintroduces uncertainty in an area where Janus
should have given the lower courts clear guidance. The
Ninth Circuit’s attempt to “cabin[]” Janus’ application
effectively nullifies Janus’ entire holding regarding
waiver and strips public employees of the presumption
against the waiver of constitutional rights. Pet. App.
18a-19a. The decision incentivizes legislatures and
unions to use union membership to inoculate their
conduct from constitutional scrutiny and impose even
harsher restrictions on employees’ First Amendment
rights than those involved here.
The Court should review and correct the Ninth
Circuit’s distortion of Janus to prevent Janus’ waiver
requirement from becoming a dead letter, resolve the
circuit split, and ensure going forward that Janus’
First Amendment protections are recognized and
respected.

11
I. This Court Should Grant Review To Make
Clear That A Voluntary And Knowing
Waiver of the First Amendment Right Not
To Subsidize A Union And Its Speech Is
Required Before States and Unions Seize
Money From Public Employees’ Wages,
And That Evidence Of Union Membership
Alone Does Not Satisfy This Standard.
This Court held in Janus that the First Amendment
guarantees public employees the right not to subsidize
union speech. See 138 S. Ct. at 2486. In so doing, the
Court issued the following rule:
Neither an agency fee nor any other payment
to the union may be deducted from a nonmember’s wages, nor may any other attempt
be made to collect such a payment, unless the
employee affirmatively consents to pay. By
agreeing to pay, nonmembers are waiving
their First Amendment rights, and such a
waiver cannot be presumed. Johnson v. Zerbst,
304 U.S. 458, 464, 58 S. Ct. 1019, 82 L.Ed.
1461 (1938); see also Knox, 567 U.S., at 312–
313, 132 S. Ct. 2277. Rather, to be effective,
the waiver must be freely given and shown
by “clear and compelling” evidence. Curtis
Publishing Co. v. Butts, 388 U.S. 130, 145, 87
S. Ct. 1975, 18 L.Ed.2d 1094 (1967) (plurality
opinion); see also College Savings Bank v.
Florida Prepaid Postsecondary Ed. Expense
Bd., 527 U.S. 666, 680–682, 119 S. Ct. 2219,
144 L.Ed.2d 605 (1999). Unless employees
clearly and affirmatively consent before any
money is taken from them, this standard
cannot be met.

12
Id. In short, the government and unions cannot take
monies for union speech from public employees without clear and compelling evidence that the employees
waived their First Amendment right not to subsidize
union speech. Yet, this is precisely what the State and
WFSE did here.
A. The Ninth Circuit’s decision conflicts
with Janus because a state cannot
seize union dues from the wages of its
employees who become union members
without proof they waived their First
Amendment right not to subsidize a
union and its speech.
The Ninth Circuit’s decision conflicts with Janus by
holding that proof of a constitutional waiver is not
required for a state and union to seize union dues from
public employees’ wages. Pet. App. 19a-20a. Rather,
the court implicitly applied contract law and held that
evidence of union membership alone suffices even if
states and unions fail to show that employees waived
their right not to subsidize union speech. Id. at
16a-17a. But the two are not equivalent. See D.H.
Overmyer Co. Inc. v. Frick Co., 405 U.S. 174, 183
(1972) (“More than mere contract law. . .is involved”
when analyzing contracts containing restrictions on
constitutional rights). A constitutionally sufficient
waiver requires that parties know of the right in
question and voluntarily and intelligently waive that
right. See Johnson, 304 U.S. at 464 (cited in Janus,
138 S. Ct. at 2486); Curtis Publishing Co., 388 U.S. at
145 (cited in Janus, 138 S. Ct. at 2486).8
8

Cohen v. Cowles Media Co., 501 U.S. 663 (9th Cir. 1971), cited
by the court below, does not mean that any contract valid under
state law is automatically constitutional, Pet. App. 16a. The

13
Union membership does not itself prove that an
employee (1) knew of her First Amendment right under
Janus not to subsidize union speech or (2) intelligently
decided to waive that right. No language in the payroll
deduction authorization cards notified Employees that
they have a right not to subsidize WFSE to any degree
as nonmembers, or that signing the agreement waives
that right. Pet. App. 81a, 83-84a. Moreover, Employees
signed the agreements before this Court even recognized that right in Janus. Id. at 6a-7a, 83a-84a, 87a.
The cards also threatened Employees with statecompelled agency fees if they declined union membership. Id. at 81a, 83a-84a. The cards cannot possibly
constitute knowing and intelligent waivers of Employees’
right not to subsidize union speech; nor did the Ninth
Circuit claim otherwise.
The court below reasoned that union membership by
itself shows that Employees properly consented to
government dues deductions, and declared that Janus
“in no way created a First Amendment waiver requirement for union members before dues are deducted
pursuant to a voluntary agreement.” Id. at 20a. But
claiming that a waiver is not necessary because an
employee voluntarily consented to union payments
puts the proverbial cart before the horse because it
inverts the standard this Court laid down in Janus.
There can be no valid dues or fee deductions without
majority in Cohen did not address the waiver question, likely
because the defendant argued it was categorically exempt under
the First Amendment from agreements to restrict First
Amendment rights, i.e., that its right to free speech was
unwaivable. Id. at 672 (“The Minnesota Supreme Court’s
incorrect conclusion that the First Amendment barred Cohen’s
claims may well have truncated its consideration of whether a
promissory estoppel claim had otherwise been established. . .”).
Employees here do not make this argument.

14
first establishing an affirmative waiver of First
Amendment rights. See Janus, 138 S. Ct. at 2486.
A court cannot, consistent with Janus, determine if
a public employee consented to a state’s union dues or
fee deductions without determining if that alleged
consent was shown by clear and compelling evidence
to be a knowing and intelligent waiver of the employee’s
right not to subsidize union speech.
Moreover, it is not necessarily true that union
membership indicates voluntary consent to government dues and fee deductions. Employees and other
coworkers who signed the payroll deduction authorization cards prior to June 27, 2018 were unconstitutionally
required at the time to pay compulsory fees to WFSE
if they declined union membership. Pet. App. 6a, 77a78a, 84a, 88a. Employees’ decisions to sign the cards
under this unconstitutional duress cannot be considered “voluntary”, let alone “knowing.” In any event,
given these compulsory fees at the time, the “voluntary”
language in the cards cannot possibly be construed as
voluntarily bypassing the right under Janus not to
subsidize any union speech as nonmembers – a right
which the State and WFSE undisputedly deprived
Employees of at the time. Id. at 83a-84a.
The Ninth Circuit unduly cabined Janus’ protections only to “nonmembers” who were “not asked” to
pay union dues. Pet. App. 17a. But a Janus waiver
protects employees’ fundamental First Amendment
right against compelled political speech, which is a
right all public employees possess – union members
and nonmembers alike. Assuming that employees who
become union members understood and waived their

15
Janus rights is contrary to the presumption against
the waiver of constitutional rights.9
The Ninth Circuit acted contrary to Janus by
finding that mere union membership is a substitute
for the constitutional waiver this Court required for
the government and unions to take monies for union
speech from employees’ wages.
B. The Ninth Circuit’s decision conflicts
with Janus because a state cannot seize
union fees from the wages of objecting,
non-union employees after they resign
union membership without proof that
they waived their right not to subsidize
a union and its speech.
Even if the court below were correct that Janus
only requires prior First Amendment waivers from
nonmembers, the court deviated from its own logic by
finding that the State and WFSE could seize union
fees from Employees’ wages as objecting non-union
employees without evidence they knowingly waived
their right not to subsidize WFSE and its speech as
9

Moreover, attempts to unearth two standards of consent in
Janus’ holding – a heightened waiver standard for nonmembers
and some other lower standard for members – are unpersuasive.
It makes no sense to decide which level of standard applies based
on an employee’s future decision to either remain a nonmember
or become a member (and then apply the relevant analysis
retroactively), e.g., a new nonmember employee who is presented
a payroll deduction authorization card upon being hired. The only
workable (and logical) practice must be to apply the same standard
of consent to all employees when they are presented with cards
that authorize state deduction of union payments from their
wages. (That standard must be a waiver standard, since that was
the only standard discussed by this Court in its Janus holding.
See 138 S. Ct. at 2486.)

16
nonmembers. Employees successfully resigned their
WFSE memberships and WFSE withdrew their membership benefits, but the State and WFSE compelled
them to continue subsidizing WFSE and its speech
until the ten-day escape period was satisfied. Pet. App.
7a-8a, 89a-90a. If Janus’ waiver requirement applies
to anyone, it applies to nonmember employees who are
being compelled to pay for union speech over their
objections.
The Ninth Circuit declined to grapple with this
important issue, and did not even apply constitutional
scrutiny to the ten-day escape period policy that
compels the payment of union fees from nonmembers.
Instead, the court focused almost exclusively on Janus’
application to union members. It never explains how
it is possible, under Janus, that payments for union
speech can constitutionally be seized from nonmember
employees over their objections without proof they
waived their First Amendment rights. Further, the
court’s reasoning also suffers from a related chronological defect: Employees were nonmembers upon
being hired, as are virtually all employees, and were
at that time entitled to the presumption against the
waiver of constitutional rights.10 Pet. App. 6a.
Ignoring all this, the court instead declared, without
analysis, that employees who resign their union
memberships are still bound by their “limited payment
commitment period.” Id. at 20a. The Ninth Circuit’s
reasoning is dangerous because it means that a public
employee’s one-time decision to join a union deprives
10

Moreover, the court’s almost exclusive focus on union membership led it to address arguments Employees never made, e.g.,
that Janus did not “recognize a member's right to pay nothing to
the union” and “Janus does not extend a First Amendment right
[to members] to avoid paying union dues.” Pet. App. 18a-19a.

17
her of all First Amendment protections. This stripping
of constitutional guarantees is effective no matter how
onerous the restrictions imposed by the agreement, or
whether she ever knew of her First Amendment right
not to subsidize the union’s speech. See infra at 25-28.
The sole effect of escape period policies is to compel
employees to contribute money to propagate union
advocacy that employees do not wish to support. Yet,
under our Constitution, it is a “bedrock principle that,
except perhaps in the rarest of circumstances, no
person in this country may be compelled to subsidize
speech by a third party that he or she does not wish to
support.” Harris v. Quinn, 573 U.S. 616, 656 (2014). At
the very least, Janus requires employees to waive
their First Amendment rights before states and unions
seize nonmember fees over employees’ objections
during an escape period policy’s “limited payment
commitment period.”
Janus forecloses the notion that states and unions
can constitutionally seize union fees from objecting
nonmembers, until an escape period is satisfied,
without proof these employees knowingly, voluntarily,
and intelligently waived their right not to subsidize
union speech. The Court should review this case to
make this clear and protect the constitutional rights of
all public employees, not just nonmembers who are
“not asked” to subsidize union speech. Pet. App. 17a.

18
II. This Court Should Grant Review to Hold
That Unions Are Liable Under 42 U.S.C.
§ 1983 When They Work Jointly With
States To Violate Public Employees’ First
Amendment Rights By Seizing Money
From Their Wages Without The Affirmative Consent Required By The First
Amendment.
In clear conflict with the precedents of this Court
and the Seventh Circuit Court of Appeals, the Ninth
Circuit concluded that WFSE was not a state actor and
could not be liable under 42 U.S.C. § 1983. Pet. App.
14a. Conduct under “the color of law,” i.e., state
action,11 subjects both government and private actors
to liability under 42 U.S.C. § 1983 when the alleged
deprivation is “caused by the exercise of some right or
privilege created by the State. . .” and the party
charged with the deprivation is “a person who may
fairly be said to be a state actor.” Lugar v. Edmondson
Oil Co., Inc., 457 U.S. 922, 937 (1982). The Ninth
Circuit’s decision to relieve WFSE of any possible
liability under 42 U.S.C. § 1983 conflicts with this
well-established standard, and review by this Court is
warranted.

11

“In cases under § 1983, ‘under the color of law’ has
consistently been treated as the same thing as the ‘state action’
requirement under the Fourteenth Amendment.” Lugar, 457 U.S.
at 928.

19
A. The Ninth Circuit’s conclusion that
WFSE was not a state actor conflicts
with this Court’s decision in Janus v.
AFSCME, Council 31, 138 S. Ct. 2448
(2018).
The Illinois statute this Court held unconstitutional
in Janus required state seizure of union payments
from employees’ wages without the affirmative consent
the First Amendment requires (a waiver). See 138
S. Ct. at 2486. Here, the underlying state action is the
same as that in Janus: state seizure of money from
employees’ wages on behalf of a union.
The State seizes this money pursuant to the demand
of a union which collectively bargained with the State
to obtain from employees the “authorization” to union
dues and fee deductions required by RCW 41.80.100.
States and unions must both be held liable when they
jointly participate in seizing employees’ wages pursuant to such procedures without the authorization
required by the First Amendment – as they have done
here by deducting money from Employees’ wages
without proof they voluntarily and knowingly waived
their right not to subsidize union speech.
Any argument that WFSE’s conduct pursuant to
this arrangement is not state action is impossible to
reconcile with this Court’s holding in Janus that both
“States and public-sector unions” may not compel
union payments “from nonconsenting employees” –
with proper “consent” defined as a waiver of First
Amendment rights. See 138 S. Ct. at 2486 (emphasis
added). This holding presupposes that unions are state
actors that can violate the First Amendment.12
12

At the very least, the nonmember fees assessed to Employees
by the State and WFSE after Employees resigned membership

20
Janus makes clear that a state’s deduction of union
dues or fees from its employees’ wages is much more
than simply a “ministerial task” unworthy of First
Amendment protection. Pet. App. 12a. When such
deductions are made outside the boundaries of First
Amendment protections, they result in a “windfall” of
“billions” of illegally-seized dollars that are funneled
to unions to fund their political speech. See Janus, 138
S. Ct. at 2486. Relieving unions of liability when they
work jointly with states to receive this windfall only
incentivizes further and harsher First Amendment
violations.
B. The Ninth Circuit’s conclusion that
WFSE was not a state actor conflicts
with the Seventh Circuit Court of
Appeals’ decision on the same question
in Janus v. AFSCME, Council 31, 942
F.3d 352 (7th Cir. 2019) (Janus II), on
remand.
In Janus II, the Seventh Circuit Court of Appeals
found that AFSCME, Council 31’s conduct was state
action because its receipt of money from employees’
wages was “attributable to the state.” See 942 F.3d at
361. The court found it “sufficient for the union’s
conduct to amount to state action” that a state “deducted
fair‐share fees from the employees’ paychecks and
transferred that money to the union, which then spent
it on . . . activities pursuant to the collective bargainconstitute state action, as this Court required proof of a constitutional waiver prior to agency fees and “any other payment” to
a union “deducted from a nonmember’s wages.” Id. at 2486
(emphasis added). This also broadly includes “any other attempt”
to collect such payments. Id. (emphasis added). A prior constitutional waiver could not be required if these deductions were not
state action.

21
ing agreement.” Id. The court “conclude[d] that AFSCME
is a proper defendant under section 1983” because
“AFSCME was a joint participant with the state in the
agency-fee arrangement.” Id. (citing Lugar, 457 U.S.
at 935 and Tulsa Professional Collection Services, Inc.
v. Pope, 485 U.S. 478, 108 S. Ct. 1340, 99 L.Ed 2d 565
(1988)).
Similarly here, WFSE’s joint participation with the
State in collectively bargaining for the State to deduct
union dues and fees from employees’ wages upon
WFSE’s demand is “sufficient for the union’s conduct
to amount to state action.” Id. It makes no difference
whether the deductions are “the collection of agency
fees” or the “transfer of union dues.” Pet. App. 13a.
WFSE is using a state-prescribed procedure to seize
another’s wages with overt assistance from the State,
just like in Janus, Lugar, and the cases cited infra at
n. 14.
Through RCW 41.80.100 and the CBA, WFSE
claims a special right it could not acquire in a simple
private agreement with employees; specifically, the
State’s use of the State payroll system pursuant to
statute to seize money from the state-issued paychecks
of state employees upon WFSE’s exclusive demand.
WFSE’s joint participation with the State in this
procedure is quintessential state action.
C. The Ninth Circuit’s conclusion that
WFSE was not a state actor conflicts
with this Court’s decision in Lugar v.
Edmondson Oil Co., 457 U.S. 922, 937
(1982).
The Ninth Circuit’s conclusion that WFSE’s conduct
“do[es] not trigger state action and independent constitutional scrutiny” because “[a]t bottom Washington’s

22
role was to enforce a private agreement”, Pet. App.
14a, is contrary to this Court’s finding of state action
in challenges to systems authorizing state seizures of
money or property. The state action here is identical
to the state action in Lugar: government seizure of
money or property pursuant to a state-created “system
whereby state officials will attach property on the ex
parte application of one party to a private dispute.”
Lugar, 457 U.S. at 942. As in Lugar, the State here
seized Employees’ property (wages) based on WFSE’s
ex parte application.13
As to Lugar’s first prong, the Ninth Circuit wrongly
found that Employees’ claimed constitutional deprivation did not result from “the exercise of some right or
privilege created by the State. . .” Id. at 9a-10a. The
“source of the alleged constitutional harm” here, Pet.
App. 10a, is the State’s seizure of its employees’ wages
and a union’s statutory authority to restrict the authorization and revocation of those seizures together with
its demand for those state seizures without the
authorization required by the First Amendment –
each of which is a “right or privilege created by the
State” in RCW 41.80.100 and which the State and
WFSE twice agreed to incorporate into Article 40 of
the 2017-2019 CBA. Pet. App. 66a-75a. In any event,
13

See MOU dated July 6, 2018 at Art. 40.3 and 40.6,
respectively (“[T]he Union will provide [the State] the percentage
and maximum dues [to] be deducted from the employee’s salary”
and “[e]very effort will be made to end the deduction. . .after
receipt by the Employer of confirmation from the Union that the
terms of the employees signed membership card regarding dues
deduction revocation have been met.”). Pet. App. 67a, 73a. See
also current RCW 41.80.100(2)(g) (“The employer shall rely on
information provided by the exclusive bargaining representative
regarding the authorization and revocation of deductions.”). Pet.
App. 55a.

23
ample Court precedent, including Lugar, demonstrate
that an allegedly voluntary agreement authorizing the
seizures does not obviate state action (e.g., a promissory note, lease agreement, or, as is the case here, a
payroll deduction authorization card).14 Pieces of
paper cannot not deprive Employees’ of any rights.
As to Lugar’s second prong, WFSE can fairly be
described as a state actor. Lugar, 975 F.3d at 947. Pet.
App. 10a. It is difficult to conceive of a scenario in
which the State could do more to “authorize[]” or
“facilitate[]” the alleged unconstitutional conduct in
this case. Id. The State created its authority to deduct
union dues and fees from its employees’ wages pursuant to “authorization” which can be less than a First
Amendment waiver (at least as applied to Employees
and putative class members), outsourced to WFSE the
authority to acquire this “authorization” and restrict its
revocation without limitation, and agreed to make such
deductions pursuant to WFSE’s exclusive demand.
WFSE became a “willful participant in joint action
with the State. . .” when it (twice) agreed with the
State in the CBA to implement this scheme. See
Dennis v. Sparks, 449 U.S. 24, 27 (1980).
14

See N. Georgia Finishing, Inc. v. Di-Chem, Inc., 419 U.S. 601,
603-04 (1975) (garnishment of bank account based on debt alleged
to be established in a private purchase agreement for goods);
Mitchell v. W.T. Grant Co., 416 U.S. 600, 604, 616-18 (1974)
(sequestration of property based on private purchase agreement);
D.H. Overmyer Co. Inc. of Ohio v. Frick Co., 405 U.S. 174, 186876 (1972) (judgment against debtor without notice pursuant to
private cognovit note); Sniadach v. Family Fin. Corp., 395 U.S.
337, 337-38 (1969) (state garnishment of employee’s wages to
satisfy alleged debt established in a private promissory note);
Fuentes v. Shevin, 407 U.S. 67, 69-70 (1962) (replevin using state
agents pursuant to a private purchase agreement); Jackson v.
Galan, 868 F.2d 165, 167-68 (5th Cir. 1989) (wage garnishment
based on private promissory note).

24
The court below incorrectly assumed that the
necessary joint action between WFSE and the State
had to relate to drafting or executing the payroll
deduction authorization cards themselves. Pet. App.
11a (“. . .when Employees signed the membership
cards that authorized the dues deductions, they did
not do so because of any state action.”). In Lugar,
however, the question was whether “a private party’s
joint participation with state officials in the seizure of
disputed property is sufficient to characterize that
party as a state actor. . .”, a question this Court
answered in the affirmative. 457 U.S. at 941-42
(emphasis added). The question was not whether the
government played a part in drafting or executing the
lease agreement that allegedly created a financial
obligation. Id.
Similarly here, the question is not whether the State
and WFSE jointly acted to assist or compel execution
of the payroll deduction authorization cards. Rather,
the proper question is whether WFSE’s “joint participation with state officials in the seizure of disputed
property is sufficient to characterize [WFSE] as a state
actor.” Lugar, 457 U.S. at 941 (emphasis added). As in
Lugar, the answer to this question is “yes.” The Ninth
Circuit, like the Fourth Circuit Court of Appeals in
Lugar, erred in holding that “‘joint participation’
required something more than invoking the aid of
state officials to take advantage of state-created attachment procedures.” Lugar, 457 U.S. at 942. WFSE's
implementation of state seizure procedures and
demand to the State to seize money from Employees'
wages – whether union dues or nonmember fees – is
state action; nothing more is required.

25
III. The Questions Presented Are of Exceptional Federal Importance And Warrant
Review Because the Decision below
Sanctions Widespread Unconstitutional
Restrictions On Public Employees’ First
Amendment Rights, Incentivizes Future
Harsher Restrictions, And Leaves Large
Numbers of Public Employees’ Rights
Susceptible to Abuse.
The Ninth Circuit’s decision below has dangerous
ramifications that the Court should address. As Abood
did 43 years ago, it invites “practical problems” in
application and the “abuse” of public employees’
fundamental First Amendment rights. Janus, 138 S.
Ct. at 2460.
First, the First Amendment rights at stake in this
case are of the utmost importance. This Court in Janus
observed that “[c]ompelling individuals to mouth
support for views they find objectionable violates . . .
[a] cardinal constitutional command.” 138 S. Ct. at
2463. “As Jefferson famously put it, ‘to compel a man
to furnish contributions of money for the propagation
of opinions which he disbelieves and abhor[s] is sinful
and tyrannical.’” Yet, this was the sole purpose of the
scheme implemented by the State and WFSE. See
supra at 2-7.
Second, the Ninth Circuit gutted Janus of its
protections against compelled funding of political
speech because it effectively nullified Janus’ entire
holding regarding constitutional waivers and the
presumption against the waiver of constitutional
rights. See Janus, 138 S. Ct. at 2486. If a Janus waiver
is unnecessary prior to any type of state-deducted
union payment from an employee’s wages so long as
the employee became a union member at any point,

26
the heightened waiver standard meant to safeguard
public employees’ constitutional rights would never
apply to any public employee anywhere. States and
unions could sidestep the knowing waiver standard
simply by inserting a membership provision into a
payroll deduction authorization card (or CBA or
statute). (It is telling that in over two years of litigation, neither the Respondents nor the lower courts
ever posited a post-Janus fact scenario in which a
Janus waiver would apply under their interpretation
of Janus’ holding.)
This leaves legislatures and unions free to severely
restrict Janus rights simply because, at some point in
the past, employees once decided to join a union – even
employees who never knew of their rights in the first
place (including employees who became union members
under a compelled agency fee regime, as is true here).
If union membership inoculates such restrictions from
constitutional scrutiny – including, as is the case here,
future seizure of union payments from objecting nonunion employees – nothing prevents states and unions
from binding employees to subsidize a union’s political
viewpoint for much longer than a year or imposing
convoluted procedures employees must navigate to
decline union membership and stop subsidizing union
speech.
The Ninth Circuit’s conclusion regarding WFSE’s
lack of state action similarly gives unions a free hand
to frustrate employees’ rights so long as state law
does not stop them. Unions would be free to devise a
panacea of restrictions on public employees’ rights
unbound by First Amendment strictures. For example,
most states which authorize and enforce these
restrictions do not limit the duration of escape period
policies or the procedures employees must navigate to

27
resign union membership and not subsidize union
speech; nor do any of them require states or unions to
notify employees of their rights. See supra at 2-7.
Third, the decision below creates a perverse incentive for governments to outsource their obligation to
acquire affirmative authorization to dues or fee
deductions to unions, which are empowered to restrict
employees’ rights without limitation pursuant to their
own interests, free of any liability under the First
Amendment or 42 U.S.C. § 1983.15 Authorization prior
to state deduction of union dues and fees from public
employees’ wages is a requirement imposed by the
Constitution. It defies reason to acknowledge that the
Constitution requires such affirmative authorization
but, at the same time, relieve of all possible constitutional liability the parties responsible for obtaining
that authorization.
Finally, the practices in this case restricting
employees’ rights are widespread and affect millions of
public employees.16 Among WFSE-represented employees alone, the State and WFSE have gotten over
16,000 employees to sign payroll deduction authoriza15

This Court recognized the dangers posed by such schemes in
Chicago Teachers Union v. Hudson, 475 U.S. 292, 308 (1986)
(“[T]he most conspicuous feature of the procedure is that from
start to finish it is entirely controlled by the Union, which is an
interested party. . .”) (internal quotations omitted).
16

The decision below affects over 2.6 million public employees
within the Ninth Circuit alone. Source: U.S. Census Bureau; “State
and Local Government: Employment and Payroll Data (June
2020)”, available at https://www2.census.gov/programs-surveys/
apes/datasets/2019/2019_state_local.xls (last visited February
10, 2021). Thousands, perhaps millions, of public employees in
states across the country are also subjected to restrictions
prohibiting them from exercising their First Amendment rights.
See supra at 5.

28
tion cards identical to the cards here (as of 2018),
which restrict employees’ ability to exercise their right
under Janus not to subsidize WFSE’s speech and
threaten employees with agency fees. Pet. App. 87a88a. Cases across the country involving these policies
demonstrate that many public employers and unions
already use the policies challenged here to restrict
employees’ from exercising their Janus rights. Pet.
App. 19a.17 Additionally, at least one other Court of
Appeals recently issued decisions undermining Janus’
protections. See LaSpina v. SEIU Pennsylvania State
Council, --- F.3d ---, No. 19-3484, 2021 WL 137742, at
*7-9 (3d Cir. 2021); Fischer v. Governor of New Jersey,
--- Fed.Appx. ---, No. 19-3914, 2021 WL 141609, at *8
(3d Cir. Jan. 15, 2021) (unpublished). Similarly, states
throughout the country have passed statutes that
authorize restrictions on when employees can choose
to stop subsidizing union speech. See supra at 5.
This Court spent forty (40) years subsequent to
Abood drawing and redrawing lines in the sand
limiting how far governments and unions could go in
restricting the limited constitutional rights protected
in Abood, finally acknowledging in Janus the unavoidable conclusion that Abood’s constantly-evolving regime
caused countless “practical problems” and “abuse.” Janus,
17

See also Pellegrino v. New York State United Teachers,
No. 18CV3439NGGRML, 2020 WL 2079386 (E.D.N.Y. Apr. 30,
2020); Adams v. Teamsters Union Local 429, No. 1:19-CV-336,
2020 WL 1558210 (M.D. Pa. Mar. 31, 2020); Lutter v. JNESO et
al, No. 1:19-cv-13478 (D. N.J. 2020); Zeigler v. AFSCME Council
13, et al., No. 2:20-cv-00996 (W.D. Pa); Baro v. AFT, No. 1:20-cv02126 (N.D. Ill.); Mandel v. SEIU Local 73, No. 1:18-cv-08385
(N.D. Ill.); Nance v. SEIU, No. 1:20-cv-03004 (N.D. Ill. 2020);
Troesch v. CTU, No. 1:20-cv-02682 (N.D. Ill.); Hoekman v. Ed.
Minn., No. 18-cv-1686 (D. Minn.); Prokes v. AFSCME 5, No. 0:18cv-2384 (D. Minn).

29
138 S. Ct. at 2460. Left to stand, the decision below is
a harbinger of a similarly evolving, problematic, and
abusive regime, characterized by public employers and
unions pushing the envelope of permissible restrictions
on First Amendment rights and leaving to individual
employees the burden of filing lawsuits to stop the
practices.
The decision below tests whether this Court meant
what it said in Janus: “Neither an agency fee nor any
other payment to the union may be deducted from a
nonmember’s wages, nor may any other attempt be
made to collect such a payment unless the employee
affirmatively consents to pay” by “waiving their First
Amendment rights. . .” Janus, 138 S. Ct. at 2486.
“Unless employees clearly and affirmatively consent
before any money is taken from them, this standard
cannot be met.” Id. The Ninth Circuit did not take
these pronouncements seriously, and its decision
should be reversed.
IV. This Case Is An Excellent Vehicle to
Address the Dangers Posed By The
Decision Below.
This Court has before it a circuit court opinion that
(a) sanctions draconian restrictions on when and
how millions of public employees can exercise their
First Amendment Janus rights, (b) incentivizes
governments and unions to impose even more severe
restrictions, and (c) creates an unworkable regime
which leaves public employees’ First Amendment
rights susceptible to abuse. This case is an excellent
vehicle to address these dangers and ensure Janus
retains vitality.
First, the facts are undisputed and involve methods
commonly used by public employers and unions to

30
restrict employees’ First Amendment rights. State
statutes and/or CBAs typically impose such restrictions
themselves or authorize unions to impose them. They
also cede exclusive control of regulating the authorization and revocation of state wage seizures to the
unions who benefit from the seizures. Washington’s
practices did (and do) both. See supra at 2-7.
Second, the facts are illustrative of the conduct
incentivized by the decision below and similar cases.
Pet. App. 19a. Like other state statutes that require
“authorization” to government union dues deductions,
the State outsourced to WFSE the role of acquiring
this required “authorization” and imposed no limitations on restricting its revocation. WFSE leveraged this
authority, along with agency fees (at the time) and its
exclusive representation, to (i) induce Employees into
severely restricting rights they did not know they had
and (ii) require them to subsidize WFSE’s political
speech against their will.
This case presents the Court with a clean and direct
opportunity to (again) clearly establish that a knowing, voluntary, and intelligent waiver of the First
Amendment right not to subsidize a union’s political
speech is the proper standard courts must apply to
determine if public employees have affirmatively
consented to government union dues or fee deductions
from their wages. See Janus, 138 S. Ct. at 2486.

31
CONCLUSION
The petition for writ of certiorari should be granted.
Respectfully submitted,
JAMES G. ABERNATHY
Counsel of Record
c/o FREEDOM FOUNDATION
P.O. Box 552
Olympia, Washington 98507
(360) 956-3482
JAbernathy@
freedomfoundation.com
Counsel for Petitioners
February 11, 2021

APPENDIX

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
————
No. 19-35137
D.C. No. 3:18-cv-05620-RJB
————
MELISSA BELGAU; DONNA BYBEE; MICHAEL STONE;
RICHARD OSTRANDER; MIRIAM TORRESPL;
KATHERINE NEWMAN; GARY HONC,
Plaintiffs-Appellants,
v.
JAY ROBERT INSLEE, in His Official Capacity
as Governor of the State of Washington;
DAVID SCHUMACHER, in His Official Capacity
as Director of the Washington Office of Financial
Management; JOHN WEISMAN, in His Official
Capacity as Director of the Washington
Department of Health; CHERYL STRANGE, in
Her Official Capacity as Director of the
Washington Department of Social Health and
Services; ROGER MILLAR, in His Official Capacity
as Director of the Washington Department of
Transportation; JOEL SACKS, in His Official
Capacity as Dir. of Washington Department of
Labor and Industries; WASHINGTON FEDERATION
OF STATE EMPLOYEES, (AFSCME, Council 28),
Defendants-Appellees,
————
Appeal from the United States District Court
for the Western District of Washington
Robert J. Bryan, District Judge, Presiding
————

2a
Argued and Submitted December 10, 2019
Seattle, Washington
Filed September 16, 2020
————
Before: M. Margaret McKeown and
Morgan Christen, Circuit Judges, and
M. Douglas Harpool,* District Judge.
Opinion by Judge McKeown
————
OPINION
————
SUMMARY**
Civil Rights
The panel affirmed the district court’s dismissal of a
putative class action brought pursuant to 42 U.S.C.
§ 1983 alleging that deduction of union dues from
plaintiffs’ paychecks violated the First Amendment.
Plaintiffs are public employees who signed membership agreements authorizing Washington state to
deduct union dues from their paychecks and transmit
them to the Washington Federation of State Employees, AFSCME Council 28 (“WFSE”). They had the
option of declining union membership and paying
fair-share representation (or agency) fees. After the
decision in Janus v. American Federation of State,
County, and Municipal Employees, Council 31, 138 S.
*

The Honorable M. Douglas Harpool, United States District
Judge for the Western District of Missouri, sitting by designation.
**

This summary constitutes no part of the opinion of the court.
It has been prepared by court staff for the convenience of the
reader.

3a
Ct. 2448 (2018), which held that compelling nonmembers to subsidize union speech is offensive to the First
Amendment, employees notified WFSE that they
no longer wanted to be union members or pay dues.
Per this request, WFSE terminated employees’ union
memberships. However, pursuant to the terms of
revised membership agreements, Washington continued to deduct union dues from employees’ wages until
an irrevocable one-year term expired.
The panel held that plaintiffs’ claims against WFSE
failed under § 1983 for lack of state action. The panel
held that neither Washington’s role in the alleged
unconstitutional conduct nor its relationship with
WFSE justified characterizing WFSE as a state actor.
At bottom, Washington’s role was to enforce a private
agreement. See Roberts v. AT&T Mobility LLC, 877
F.3d 833, 844 (9th Cir. 2017) (“there is no state action
simply because the state enforces [a] private agreement”). Because the private dues agreements did not
trigger state action and independent constitutional
scrutiny, the district court properly dismissed the
claims against WFSE.
Addressing whether the claims for prospective relief
against Washington were moot, the panel held that
the claims fell within the “capable of repetition yet
evading review” mootness exception. The panel held
that the challenged action, continued payroll deduction of union dues after an employee objects to union
membership, capped at a period of one year, was too
short for judicial review to run its course.
The panel held that the First Amendment claim for
prospective relief against Washington failed because
employees affirmatively consented to the deduction of
union dues. The panel rejected employees’ argument
that the Supreme Court’s decision in Janus voided the

4a
commitment they made and now required the state to
insist on strict constitutional waivers with respect to
deduction of union dues. The panel held that Janus did
not extend a First Amendment right to avoid paying
union dues, and in no way created a new First
Amendment waiver requirement for union members
before dues are deducted pursuant to a voluntary
agreement. The panel held that neither state law
nor the collective bargaining agreement compelled
involuntary dues deduction and neither violated the
First Amendment. The panel concluded that in the
face of plaintiffs’ voluntary agreement to pay union
dues and in the absence of any legitimate claim of
compulsion, the district court appropriately dismissed
the First Amendment claim against Washington.
COUNSEL
James G. Abernathy (argued), Olympia, Washington,
for Plaintiffs-Appellants.
Matthew J. Murray (argued), Scott A. Kronland, and
P. Casey Pitts, Altshuler Berzon LLP, San Francisco,
California; Edward E. Younglove III, Younglove &
Coker PLLC, Olympia, Washington; for DefendantAppellee Washington Federation of State Employees,
(AFSCME, Council 28).
Alicia Orlena Young (argued), Senior Counsel; Kelly
M. Woodward, Attorney; Robert W. Ferguson, Attorney
General; Office of the Attorney General, Olympia,
Washington; for Defendants-Appellees Jay Robert
Inslee, David Schumacher, John Weisman, Cheryl
Strange, Roger Millar, and Joel Sacks.

5a
OPINION
McKEOWN, Circuit Judge:
The Supreme Court’s decision in Janus v. American
Federation of State, County, and Municipal Employees, Council 31 was a gamechanger in the world of
unions and public employment. 138 S. Ct. 2448 (2018).
In Janus the Court concluded that compelling nonmembers to subsidize union speech is offensive to the
First Amendment. Public employers stopped automatically deducting representation fees from nonmembers.
But the world did not change for Belgau and others
who affirmatively signed up to be union members.
Janus repudiated agency fees imposed on nonmembers, not union dues collected from members, and left
intact “labor-relations systems exactly as they are.”
Id. at 2485 n.27. Belgau and fellow union-member
employees claim that, despite their agreement to the
contrary, deduction of union dues violated the First
Amendment. Their claim against the union fails under
42 U.S.C. § 1983 for lack of state action, a threshold
requirement. Their First Amendment claim for prospective relief against Washington state also fails
because Employees affirmatively consented to deduction of union dues. Neither state law nor the collective
bargaining agreement compels involuntary dues deduction and neither violates the First Amendment. We
affirm the district court’s dismissal of the case.
BACKGROUND
The putative class action plaintiffs Melissa Belgau,
Michael Stone, Richard Ostrander, Miriam Torres,
Katherine Newman, Donna Bybee, and Gary Honc
(collectively, “Employees”) work for Washington state
and belong to a bargaining unit that is exclusively
represented by the Washington Federation of State

6a
Employees, AFSCME Council 28 (“WFSE”). See RCW
41.80.080(2)–(3). Washington employees are not required to join a union to get or keep their jobs, though
around 35,000 of the 40,000 employees in the bargaining unit are WFSE members. See RCW 41.80.050.
Employees became union members within three
months of starting work. They signed membership
agreements authorizing their employer, Washington
state, to deduct union dues from their bi-weekly
paychecks and transmit them to WFSE.
At the time Employees signed the membership
cards, union dues were between 1.37% and 1.5% of
base wages. They had the option of declining union
membership and paying fair-share representation (or
agency) fees, which were approximately 65–79% of
union dues. Agency fees covered the cost incurred by
the union in representing the interests of all employees—members and nonmembers alike—in the bargaining unit over the terms of employment. See Abood
v. Detroit Bd. of Educ., 431 U.S. 209, 232, 235 (1977),
overruled by Janus, 138 S. Ct. 2448. The monies could
not be used for First Amendment activities that were
“not germane to [the union’s] duties as collectivebargaining representative.” Id. at 235.
Joining the union conferred rights and benefits.
Employees could vote on the ratification of collective
bargaining agreements, vote or run in WFSE officer
elections, serve on bargaining committees, and otherwise participate in WFSE’s internal affairs. Employees also enjoyed members-only benefits, including
discounts on goods and services, access to scholarship
programs, and the ability to apply for disaster/
hardship relief grants.
Based on the authorization in the membership
agreements, Washington deducted union dues from

7a
Employees’ paychecks. Article 40 of the 2017–2019
collective bargaining agreement (“CBA”) between
Washington and WFSE required Washington to
deduct “the membership dues from the salary of
employees who request such deduction . . . on a Union
payroll deduction authorization card,” and to “honor
the terms and conditions” of these membership cards.
Washington law also directed Washington to collect
the dues on behalf of WFSE from union members who
authorized the deduction. See RCW 41.80.100(3)(a).1
In 2017, WFSE circulated a revised membership
agreement. The revised card, a single-page document,
headlined: “Yes!” the signatory “want[s] to be a union
member.” A series of voluntary authorizations followed. The signatory “voluntarily authorize[ed]” and
“direct[ed]” Washington to deduct union dues and
remit them to WFSE. The signatory agreed that the
“voluntary authorization” will be “irrevocable for a
period of one year.” The signatory reiterated and
confirmed these voluntary authorizations above the
signature line. Employees were not required to sign
the revised cards to keep their jobs or remain as WFSE
members. Employees signed the revised cards.
After the Supreme Court decided Janus in June
2018, Washington and WFSE promptly amended
the operative 2017–2019 CBA. These July 2018 and
August 2018 Memos of Understanding removed
Washington’s authority to deduct an “agency shop fee,
non-association fee, or representation fee” from
1

Citations are to the section numbers in effect at the time of
the deductions. The current version of RCW 41.80.100, which
became effective on July 28, 2019, removes the authority for
collecting representation fees but leaves intact the language
about collecting membership dues. See Washington Laws of 2019,
ch. 230 §§ 15, 18.

8a
nonmember paychecks. However, the updated provision did not change Washington’s obligation to collect
“membership dues” from those who authorized the
deduction and to “honor the terms and conditions of
each employee’s signed membership cards.”
After the Janus decision, Employees notified WFSE
that they no longer wanted to be union members
or pay dues. Per this request, WFSE terminated
Employees’ union memberships. However, pursuant to
the terms of the revised membership agreements,
Washington continued to deduct union dues from
Employees’ wages until the irrevocable one-year terms
expired. The dues were last collected from Employees
when the one-year terms expired in April 2019.
In August 2018, Employees filed a putative class
action against the state defendants—Washington
State Governor Jay Inslee, and state agency directors
and secretaries David Schumacher, John Weisman,
Cheryl Strange, Roger Millar, and Joel Sacks (collectively, “Washington”)—and WFSE alleging that the
dues deductions violated their First Amendment
rights and unjustly enriched WFSE. Employees
sought injunctive relief against Washington from continued payroll deduction of union dues, and compensatory damages and other relief against WFSE for
union dues paid thus far. The district court granted
summary judgment for Washington and WFSE and
dismissed the case.
ANALYSIS
I. THE § 1983 CLAIM AGAINST THE UNION
FAILS FOR LACK OF STATE ACTION
The gist of Employees’ claim against the union is
that it acted in concert with the state by authorizing
deductions without proper consent in violation of the

9a
First Amendment. The fallacy of this approach is that
it assumes state action sufficient to invoke a constitutional analysis. To establish a claim under 42 U.S.C.
§ 1983, Employees must show that WFSE deprived
them of a right secured by the Constitution and acted
“under color of state law.” Collins v. Womancare, 878
F.2d 1145, 1147 (9th Cir. 1989). The Supreme Court
has long held that “merely private conduct, however
discriminatory or wrongful,” falls outside the purview
of the Fourteenth Amendment. Blum v. Yaretsky, 457
U.S. 991, 1002 (1982) (citation omitted).
The state action inquiry boils down to this: is the
challenged conduct that caused the alleged constitutional deprivation “fairly attributable” to the state?
Naoko Ohno v. Yuko Yasuma, 723 F.3d 984, 993 (9th
Cir. 2013); see Blum, 457 U.S. at 1004 (“constitutional
standards are invoked only when it can be said that
the State is responsible for the specific conduct of
which the plaintiff complains”); Flagg Bros., Inc. v.
Brooks, 436 U.S. 149, 156 (1978) (the challenged
unconstitutional conduct must be “properly attributable to the State”). The answer here is simple: no.
We employ a two-prong inquiry to analyze whether
Washington’s “involvement in private action is itself
sufficient in character and impact that the government fairly can be viewed as responsible for the harm
of which plaintiff complains.” Ohno, 723 F.3d at 994;
see Lugar v. Edmondson Oil Co., 457 U.S. 922, 937
(1982) (two-prong test). The first prong—“whether the
claimed constitutional deprivation resulted from ‘the
exercise of some right or privilege created by the State
or by a rule of conduct imposed by the state or by a
person for whom the State is responsible’”—is not met
here. Ohno, 723 F.33d at 994 (quoting Lugar, 457 U.S.
at 937). It is important to unpack the essence of

10a
Employees’ constitutional challenge: they do not generally contest the state’s authority to deduct dues
according to a private agreement. Rather, the claimed
constitutional harm is that the agreements were
signed without a constitutional waiver of rights. Thus,
the “source of the alleged constitutional harm” is not a
state statute or policy but the particular private
agreement between the union and Employees. Id.
Nor can Employees prevail at the second step—
“whether the party charged with the deprivation could
be described in all fairness as a state actor.” Id. As a
private party, the union is generally not bound by the
First Amendment, see United Steelworker of Am. v.
Sadlowski, 457 U.S. 102, 121 n.16 (1982), unless it has
acted “in concert” with the state “in effecting a
particular deprivation of constitutional right,” Tsao v.
Desert Palace, Inc., 698 F.3d 1128, 1140 (9th Cir. 2012)
(citations omitted). A joint action between a state and
a private party may be found in two scenarios: the
government either (1) “affirms, authorizes, encourages, or facilitates unconstitutional conduct through
its involvement with a private party,” or (2) “otherwise
has so far insinuated itself into a position of interdependence with the non-governmental party,” that it
is “recognized as a joint participant in the challenged
activity.” Ohno, 723 F.33d at 996. Neither exists here.2
No Coercion or Oversight. The state’s role here was
to permit the private choice of the parties, a role that
is neither significant nor coercive. See Am. Mfrs. Mut.
Ins. Co. v. Sullivan, 526 U.S. 40, 54 (1999) (requiring
2

Nor does WFSE qualify as a state actor under other tests the
Supreme Court has articulated—the public function, the state
compulsion, and the governmental nexus tests. See Desert Palace,
398 F.3d at 1140.

11a
“significant assistance”); Lugar, 457 U.S. at 937
(requiring “significant aid”). The private party cannot
be treated like a state actor where the government’s
involvement was only to provide “mere approval or
acquiescence,” “subtle encouragement,” or “permission
of a private choice.” See Sullivan, 526 U.S. at 52–54.
WFSE and Employees entered into bargained-for
agreements without any direction, participation, or
oversight by Washington. “The decision” to deduct
dues from Employees’ payrolls was “made by concededly private parties,” and depended on “judgments
made by private parties without standards established
by the State.” Id. at 52 (citation omitted); see Pinhas v.
Summit Health, Ltd., 894 F.2d 1024, 1034 (9th Cir.
1989) (“Only private actors were responsible for the
[challenged] decision” where “the decision ultimately
turned on the judgments made by private parties
according to professional standards that are not
established by the State.” (quotation marks and citation omitted)). Therefore, when Employees “signed”
the membership cards that authorized the dues deductions, they “did not do so because of any state action.”
Duffield v. Robertson Stephens & Co., 144 F.3d 1182,
1201 (9th Cir. 1998), overruled on other grounds by
E.E.O.C. v. Luce, Forward, Hamilton & Scripps, 345
F.3d 742 (9th Cir. 2003); see Canlis v. San Joaquin
Sheriff’s Posse Comitatus, 641 F.2d 711, 717 (9th Cir.
1981) (“purely private” decisions, “exclusively from
within the organization itself,” do not make WFSE a
state actor).
Although Washington was required to enforce the
membership agreement by state law, it had no say in
shaping the terms of that agreement. The state
“cannot be said to provide ‘significant assistance’ to
the underlying acts that [Employees] contends consti-

12a
tuted the core violation of its First Amendment rights”
if the “law requires” Washington to enforce the
decisions of others “without inquiry into the merits” of
the agreement. Ohno, 723 F.3d at 996–97. Washington’s
“mandatory indifference to the underlying merits” of
the authorization “refutes any characterization” of
WFSE as a joint actor with Washington. Id. at 997.
Ministerial Processing. At best, Washington’s role in
the allegedly unconstitutional conduct was ministerial
processing of payroll deductions pursuant to Employees’ authorizations. But providing a “machinery” for
implementing the private agreement by performing an
administrative task does not render Washington and
WFSE joint actors. Sullivan, 526 U.S. at 54. Much
more is required; the state must have “so significantly
encourage[d] the private activity as to make the State
responsible for” the allegedly unconstitutional
conduct. Id. at 53.
No Symbiotic Relationship. Nor did Washington
“insinuate[] itself into a position of interdependence
with” WFSE. Ohno, 723 F.3d at 996 (citation omitted).
A merely contractual relationship between the government and the non-governmental party does not support joint action; there must be a “symbiotic relationship” of mutual benefit and “substantial degree of
cooperative action.” Sawyer v. Johansen, 103 F.3d 140,
140 (9th Cir. 1996); Collins, 878 F.2d at 1154. Thus,
no significant interdependence exists unless the
“government in any meaningful way accepts benefits
derived from the allegedly unconstitutional actions.”
See Ohno, 723 F.3d at 997. Here Washington received
no benefits as a passthrough for the dues collection.
The state remitted the total amount to WFSE and kept
nothing for itself. Far from acting in concert, the
parties opposed one another at the collective bargain-

13a
ing table. See Nat’l Collegiate Athletic Ass’n v.
Tarkanian, 488 U.S. 179, 196 (1988) (where the
private actor “acted much more like adversaries than
like partners,” the private actor is “properly viewed
as . . . at odds with the State”). Because neither
Washington’s role in the alleged unconstitutional
conduct nor its relationship with WFSE justify
characterizing WFSE as a state actor, Employees cannot
establish the threshold state action requirement.
We are not persuaded by Employees’ attempt to
avoid the state action analysis by framing their grievances as a direct challenge to government action. This
approach does not square with their theory of allegedly insufficient consent for dues deduction, rather
than a challenge to the law or the CBA. As we have
observed, “[i]f every private right were transformed
into a governmental action just by raising a direct
constitutional challenge, the distinction between
private and governmental action would be obliterated.” Roberts v. AT&T Mobility LLC, 877 F.3d 833,
839 (9th Cir. 2017) (citation omitted).
Neither are we swayed by Employees’ attempt to fill
the state-action gap by equating authorized dues
deduction with compelled agency fees. The actual
claim is aimed at deduction of dues without a constitutional waiver, not a deduction of agency fees, which did
not occur.3 See Blum, 457 U.S. at 1004 (state action
analysis is aimed at “the specific conduct of which the
plaintiff complains” (emphasis added)).

3

Our conclusion that state action is absent in the deduction
and the transfer of union dues does not implicate the Seventh
Circuit’s analysis on the collection of agency fees. See Janus v.
Am. Federation of State, Cty. and Municipal Employees, Council
31, 942 F.3d 352, 361 (7th Cir. 2019) (“Janus II”).

14a
At bottom, Washington’s role was to enforce a
private agreement. See Roberts, 877 F.3d at 844
(“there is no state action simply because the state
enforces [a] private agreement”). Because the private
dues agreements do not trigger state action and
independent constitutional scrutiny, the district court
properly dismissed the claims against WFSE.4
II. EMPLOYEES HAVE NO FIRST AMENDMENT CLAIM AGAINST THE STATE
A. MOOTNESS
Employees’ sole remaining claim against Washington
is for an injunction prohibiting the continued deduction of dues despite signed deduction authorizations.
When Employees filed the complaint, Washington was
still deducting union dues from their payrolls; however, the deductions ceased when the one-year payment commitment periods expired. A live dispute
“must be extant at all stages of review, not merely at
the time the complaint is filed.” Preiser v. Newkirk,
422 U.S. 395, 401 (1975) (citations omitted). Thus, any
prospective injunction would not provide relief for
Employees’ mooted claim. See Ruiz v. City of Santa
Maria, 160 F.3d 543, 549 (9th Cir. 1998) (“Claims for
injunctive relief become moot when the challenged
activity ceases” and “the alleged violations could not
reasonably be expected to recur” (citation omitted)).
But we are not deprived of jurisdiction because the
claim falls within an exception to mootness.

4

The district court also properly dismissed the unjust enrichment claim against the union in light of the contractual agreement between the parties. See Young v. Young, 164 Wash. 2d 477,
484–85 (2008).

15a
In the class action context, a “controversy may
exist . . . between a named defendant and a member of
the class represented by the named plaintiff, even
though the claim of the named plaintiff has become
moot.” Sosna v. Iowa, 419 U.S. 393, 402 (1975). The
Court extended this principle to situations where, as
here, the district court has not ruled on class certification. See Gerstein v. Pugh, 420 U.S. 103, 110 n.11
(1975). A claim qualifies for this “limited” exception if
“the pace of litigation and the inherently transitory
nature of the claims at issue conspire to make
[mootness] requirement difficult to fulfill.” United
States v. Sanchez-Gomez, 138 S. Ct. 1532, 1539 (2018).
Such an inherently transitory, pre-certification
class-action claim falls within the “capable of repetition yet evading review” mootness exception if (1) “the
duration of the challenged action is ‘too short’ to allow
full litigation before it ceases,” Johnson v. Rancho
Santiago Cmty Coll. Dist., 623 F.3d 1011, 1019 (9th
Cir. 2010), and (2) there is a reasonable expectation
that the named plaintiffs could themselves “suffer
repeated harm” or “‘it is certain that other persons
similarly situated’ will have the same complaint,” Pitts
v. Terrible Herbst, Inc., 653 F.3d 1081, 1089–90 (9th
Cir. 2011) (quoting Gerstein, 420 U.S. at 110 n.11).
Employees’ claim satisfies both conditions.
The challenged action—continued payroll deduction
of union dues after an employee objects to union
membership—is capped at a period of one year, which
is too short for the judicial review to “run its course.”
See Johnson, 623 F.3d at 1019 (three years is “too
short”). Because Washington continued to deduct
union dues until the one-year terms expired, other
persons similarly situated could be subjected to the

16a
same conduct. For these reasons, we exercise jurisdiction over Employees’ claim against Washington.
B. THE FIRST AMENDMENT
Employees do not claim that joining a union was a
condition of their job; they chose to join WFSE.
Employees do not offer a serious argument that they
were coerced to sign the membership cards; they
voluntarily authorized union dues to be deducted from
their payrolls. Employees do not argue they were later
required to sign the revised union cards; they signed
those documents and made the commitment to pay
dues for one year. These facts speak to a contractual
obligation, not a First Amendment violation. Employees instead argue that the Court’s decision in Janus
voided the commitment they made and now requires
the state to insist on strict constitutional waivers with
respect to deduction of union dues. This argument
ignores the facts and misreads Janus.
The First Amendment does not support Employees’
right to renege on their promise to join and support
the union. This promise was made in the context of
a contractual relationship between the union and its
employees. When “legal obligations . . . are selfimposed,” state law, not the First Amendment, normally governs. See Cohen v. Cowles Media Co., 501
U.S. 663, 671 (1991); Erie Telecomms., Inc. v. City
of Erie, Pa., 853 F.2d 1084, 1989–90 (3d Cir. 1988)
(distinguishing a First Amendment challenge from a
claim to enforce “contractual obligations under the
franchise and access agreements”). Nor does the First
Amendment provide a right to “disregard promises
that would otherwise be enforced under state law.”
Cohen, 501 U.S. at 671; cf. Dietemann v. Time, Inc.,
449 F.2d 245, 249 (9th Cir. 1971) (“The First Amendment is not a license to trespass, to steal, or to intrude

17a
by electronic means into the precincts of another’s
home or office.”).
Janus did not alter these basic tenets of the First
Amendment. The dangers of compelled speech animate Janus. 138 S. Ct. at 2463–64. The Court underscored that the pernicious nature of compelled speech
extends to “[c]ompelling individuals to mouth support
for views they find objectionable” by forcing them to
subsidize that speech. Id. at 2463. For that reason, the
Court condemned the practice of “automatically
deduct[ing]” agency fees from nonmembers who were
“not asked” and “not required to consent before the
fees are deducted.” Id. at 2460–61.
Employees, who are union members, experienced no
such compulsion. Under Washington law, Employees
were free to “join” WFSE or “refrain” from participating in union activities. See RCW 41.80.050.
Washington and WFSE did not force Employees to
sign the membership cards or retain membership
status to get or keep their public-sector jobs. Employees repeatedly stated that they “voluntarily authorize[d]” Washington to deduct union dues from their
wages, and that the commitment would be “irrevocable for a period of one year.” Washington honored
the terms and conditions of a bargained-for contract
by deducting union dues only from the payrolls of
Employees who gave voluntary authorization to do so.
See RCW 41.80.100(3)(a). No fact supports even a
whiff of compulsion.
That Employees had the option of paying less as
agency fees pre-Janus, or that Janus made that lesser
amount zero by invalidating agency fees, does not
establish coercion. Employees’ choice was not between
paying the higher union dues or the lesser agency fees.
Choosing to pay union dues cannot be decoupled from

18a
the decision to join a union. The membership card
Employees signed, titled “Payroll Deduction Authorization,” begins with the statement: “Yes! I want to be
a union member.” This choice to voluntarily join a
union and the choice to resign from it are contrary to
compelled speech. See Gallo Cattle Co. v. Cal. Milk
Advisory Bd., 185 F.3d 969, 975 & n.7 (9th Cir. 1999);
see also Bauchman for Bauchman v. W. High Sch., 132
F.3d 542, 557–58 (10th Cir. 1997) (“a choice whether
or not to sing songs she believe infringed upon” her
First Amendment right “negates” “coercion or compulsion”); Kidwell v. Transp. Commc’ns Int’l Union, 946
F.2d 283, 292–93 (4th Cir. 1991) (“Where the employee
has a choice of union membership and the employee
chooses to join, the union membership money is not
coerced.”). By joining the union and receiving the benefits of membership, Employees also agreed to bear the
financial burden of membership.
Janus does not address this financial burden of
union membership. The Court explicitly cabined the
reach of Janus by explaining that the “[s]tates can
keep their labor-relations systems exactly as they
are—only they cannot force nonmembers to subsidize
public-sector unions.” 138 S. Ct. at 2485 n.27. Nor did
Janus recognize members’ right to pay nothing to the
union. The Court “was not concerned in the abstract
with the deduction of money from employees’ paychecks pursuant to an employment contract” nor did it
give “an unqualified constitutional right to accept the
benefits of union representation without paying.”
Janus II, 942 F.3d at 357–58. We join the swelling
chorus of courts recognizing that Janus does not

19a
extend a First Amendment right to avoid paying union
dues.5
In an effort to circumvent the lack of compulsion,
Employees define the relevant First Amendment right
as the freedom not to pay union dues without “consent
that amount to the waiver of a First Amendment
right.” In arguing that Janus requires constitutional
waivers before union dues are deducted, Employees
5

See Mendez v. Cal. Teachers Ass’n, et al., 419 F. Supp. 3d
1182, 1186 (N.D. Cal. 2020) (“As every court to consider the issue
has concluded, Janus does not preclude enforcement of union
membership and dues deduction authorization agreements . . . .”);
Allen v. Ohio Civil Serv. Emps. Ass’n AFSCME, Local 11, 2020
WL 1322051, at *12 (S.D. Ohio Mar. 20, 2020) (noting “the unanimous post-Janus district court decisions holding that employees
who voluntarily chose to join a union . . . cannot renege on their
promises to pay union dues”). See, e.g., Fisk v. Inslee, 759 F. App’x
632, 633 (9th Cir. 2019); Creed v. Alaska State Emps. Ass’n/
AFSCME Local 52, 2020 WL 4004794, at *5–10 (D. Alaska July 15,
2020); Molina v. Pa. Soc. Serv. Union, 2020 WL 2306650, at *7–8
(M.D. Pa. May 8, 2020); Durst v. Or. Educ. Ass’n, 2020 WL 1545484,
at *4 (D. Or. Mar. 31, 2020); Bennett v. Am. Fed’n of State, Cty., and
Mun. Emps., Council 31, AFL-CIO et al., 2020 WL 1549603, at *3–5
(C.D. Ill. Mar. 30, 2020); Loescher v. Minn. Teamsters Pub. & Law
Enf’t Emps.’ Union, Local No. 320 and Indep. Sch. Dist. No. 831,
2020 WL 912785, at *7 (D. Minn. Feb. 26, 2020); Quirarte v. United
Domestic Workers AFSCME Local 3930, 2020 WL 619574, at *5–6
(S.D. Cal. Feb. 10, 2020); Hendrickson v. AFSCME Council 18, 2020
WL 365041, at *5–6 (D.N.M. Jan. 22, 2020); Hernandez v. AFSCME
Cal., 424 F. Supp. 3d 912, 923–24 (E.D. Cal. 2019); Smith v. Super
Ct., Cty. of Contra Costa, 2018 WL 6072806, at *1 (N.D. Cal. Nov.
16, 2019); Oliver v. Serv. Emps. Int’l Union Local 668, 2019 WL
5964778 (E.D. Pa. Nov. 12, 2019); Anderson v. SEIU, 2019 WL
4246688, at *2 (D. Or. Sept. 4, 2019); Seager v. United Teachers
L.A., 2019 WL 3822001, at *2 (C.D. Cal. Aug. 14, 2019);
O’Callaghan v. Regents of Univ. of Cal., 2019 WL 2635585, at *3
(C.D. Cal. June 10, 2019); Babb v. Cal. Teachers Ass’n, 378 F.
Supp. 3d 857, 877 (C.D. Cal. 2019); Cooley v. Cal. Statewide Law
Enf’t Ass’n, 2019 WL 331170, at *2 (E.D. Cal. Jan. 25, 2019).

20a
seize on a passage requiring any waiver of the First
Amendment right to be “freely given and shown by
‘clear and compelling’ evidence.” Janus, 138 S. Ct. at
2486. This approach misconstrues Janus. The Court
considered whether a waiver could be presumed for
the deduction of agency fees only after concluding that
the practice of automatically deducting agency fees
from nonmembers violates the First Amendment. It
was in this context that the Court mandated that nonmembers “freely,” “clearly,” and “affirmatively” waive
their First Amendment rights before any payment can
be taken from them. Id. The Court discussed constitutional waiver because it concluded that nonmembers’
First Amendment right had been infringed, and in no
way created a new First Amendment waiver requirement for union members before dues are deducted
pursuant to a voluntary agreement.
We note that there is an easy remedy for Washington
public employees who do not want to be part of the
union: they can decide not to join the union in the first
place, or they can resign their union membership after
joining. Employees demonstrated the freedom do so,
subject to a limited payment commitment period. In
the face of their voluntary agreement to pay union
dues and in the absence of any legitimate claim of
compulsion, the district court appropriately dismissed
the First Amendment claim against Washington.
AFFIRMED.

21a
APPENDIX B
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT TACOMA
[Filed February 15, 2019]
————
Case No. 18-5620 RJB
————
MELISSA BELGAU, DONNA BYBEE,
RICHARD OSTRANDER, KATHRINE NEWMAN,
MIRIAN TORRES, GARY HONC, and MICHAEL STONE,
v.

Plaintiffs,

JAY INSLEE, in his official capacity as governor
of the State of Washington, DAVID SCHUMACHER,
in his official capacity as Director of the Washington
Office of Financial Management, JOHN WEISMAN,
in his official capacity as Director of the Washington
Department of Health, CHERYL STRANGE, in her
official capacity as Director of the Washington
Department of Social and Health Services, ROGER
MILLAR, in his official capacity as Director of the
Washington Department of Transportation, JOEL
SACKS, in his official capacity as Director of the
Washington Department of Labor and Industries,
and WASHINGTON FEDERATION OF STATE EMPLOYEES
(AFSCME, COUNSEL 28) a labor corporation,
Defendants.
————
ORDER ON CROSS MOTIONS
FOR SUMMARY JUDGMENT
————

22a
THIS MATTER comes before the Court on the
Defendants Governor Jay Inslee, Director David
Schumacher. Secretary John Wiesman, Secretary
Cheryl Strange, Secretary Roger Millar, and Director
Joel Sacks’ (“State Defendants”) Motion for Summary
Judgment (Dkt. 47), Defendant Washington Federation of State Employees, AFSCME Council 28’s
(“Union”) Motion for Summary Judgment (Dkt. 46),
and the Plaintiffs Melissa Belgau, Donna Bybee,
Michael Stone, Righard Ostrander, Miriam Torres,
Katherine Newman, and Gary Honc’s Cross-Motion
for Summary Judgment (Dkt. 48). The Court has
considered the pleadings filed regarding the motions
and the remaining file.
Plaintiffs, who are Washington State employees,
filed this putative class action on August 2, 2018,
asserting that the Defendants are violating their first
amendment rights by deducting union dues/fees from
their wages even “after the U.S. Supreme Court issued
Janus v. AFSCME, Council 31, on June 27, 2018,
despite the fact that Plaintiffs have not clearly and
affirmatively consented to the deductions by waiving
the constitutional right to not fund union advocacy.”
Dkt. 1 (citing Janus v. AFSCME, Council 31, 138 S.Ct.
2448 (2018)).
For the reasons provided below, the State and
Union’s motions for summary judgment (Dkts. 46 and
47) should be granted and the Plaintiffs’ motion (Dkt.
48) should be denied.
I. FACTS AND PROCEDURAL HISTORY
A. BACKGROUND FACTS
The State and the Union entered an exclusive
collective bargaining agreement for the years 20172019 (“CBA”) which included the collection of agency

23a
fees for non-union members. Dkts. 44, at 2 and 44-1,
at 2. Upon the Union member’s written authorization,
the State is obligated by statute to “deducting from
the payments to bargaining unit members the
dues required for membership in the [Union].” RCW
§ 41.80.100 (3)(b)(i).
The Union represents more than 40,000 Washington
State employees; over 35,000 are dues paying members. Dkt. 44, at 2. Each Plaintiff is a “Washington
state employee working in a General Government
bargaining unit of employees that is exclusively
represented by the [Union] for purposes of collective
bargaining.” Dkt. 44, at 2. They became Union members before July 2017. Dkts. 44-4 to 44-10. State
employees are not required to become Union members
as a condition of employment. Dkt. 44, at 3. Union
members may resign their membership at any time.
Dkt. 44, at 3.
In July 2017, the Union decided to begin using a new
membership agreement which included a one-year
dues payment commitment (“2017 membership agreement” or “2017 agreement”). Dkt. 44, at 3. Members of
the Union were asked, but not required, to sign the
2017 agreement. Id. The request was make “after a
deliberative process by [the Union’s] democratically
elected Executive Board, which formally approved the
new cards in a meeting open to [Union] members.” Id.
Union members did not have to sign the new cards to
remain Union members; initial cards are considered
effective. Id.
The 2017 membership agreement, entitled “Payroll
Deduction Authorization & Maintenance of Membership Card,” provided, in part:
Yes! I stand united with my fellow State
employees . . . 100% Union . . .

24a
Yes! I want to be a union member. . .
Effective immediately, I hereby voluntarily
authorize and direct my Employer to deduct
from my pay each period, the amount of dues
as set in accordance with the [Union] Constitution and By-Laws and authorize my
Employer to remit such amount semimonthly to the Union (currently 1.5% of my
salary per pay period not to exceed the
maximum). This voluntary authorization and
assignment shall be irrevocable for a period of
one year from the date of execution or until
the termination date of the collective bargaining agreement (if there is one) between the
Employer and the Union, whichever occurs
sooner, and for year to year thereafter unless
I give the Employer and the Union written
notice of revocation not less than ten (10) days
and not more than twenty (20) days before the
end of any yearly period, regardless of
whether I am or remain a member of the
Union, unless I am no longer in active pay
status in a [Union] bargaining unit; provided
however, if the applicable collective-bargaining
agreement specifies a longer or different revocation period, then only that period shall
apply. This card supersedes any prior checkoff authorization card I signed. I recognize
that my authorization of dues deductions, and
the continuation of such authorization from
one year to the next, is voluntary and not a
condition of my employment.
Dkts. 44-11 to 44-17. Each of the Plaintiffs signed the
2017 membership agreement: Plaintiff Belgau on
November 2, 2017; Plaintiff Ostrander on November 2,

25a
2018; Plaintiff Bybee on November 7, 2017; Plaintiff
Stone on March 6, 2018; Plaintiff Newman on March
21, 2018; Plaintiff Honc on April 14, 2018; and Plaintiff Torres on April 16, 2018. Id. Each were afforded
the opportunity to opt-out of Union membership, but
did not choose to do so. Id.
The Defendants did not prevent, or advise, the
Plaintiffs to seek legal counsel before they signed the
original or 2017 membership agreements. Dkt. 44, at
3. The Plaintiffs did not seek legal counsel before
signing the agreements. Id.
At the time the Plaintiffs signed their original and
2017 agreements, “the representation fee applicable to
non-members ranged from approximately 65.3% to
78.8% of Union dues paid by Union members.” Dkt. 44,
at 4. Union dues were calculated “between approximately 1.37% and 1.5% of union members’ base
wages.” Id.
Members of the Union are accorded exclusive rights,
including “the ability to vote on whether to ratify a
collective bargaining agreement, vote in Union officer
elections, run for Union office, have the opportunity to
serve on bargaining committees, and participate in the
Union’s internal affairs.” Dkt. 44, at 4. They are also
given members-only benefits, including “discounts on
goods and services, including home mortgages and
wireless phone plans, access to scholarship programs,
free legal advice, discounted dental benefits, annual
family campouts, access to the Union Sportsman’s
Alliance, and access to the AFSCME Free College
program.” Id., at 5. They are also eligible to apply for
disaster/hardship relief grants through the Foundation for Working Families. Id.

26a
On June 27, 2018, the United States Supreme Court
decided Janus v. AFSCME, Council 31. 138 S. Ct.
2448, 2486 (2018). The State and the Union entered
into a Memorandum of Understanding on July 6, 2018,
and amended the CBA to stop collection of compulsory
agency fees for non-union members. Dkt. 44, at 2. As
amended in July of 2018, § 40.2 of the CBA provides:
The Employer agrees to deduct an amount
equal to the membership dues from the salary
of employees who request such deduction in
writing within thirty (30) days of receipt of a
properly completed request submitted to
the appropriate agency payroll office. Such
requests will be made on a Union payroll
deduction authorization card. The Employer
will honor the terms and conditions of each
employee’s signed membership card.
Dkt. 44-3, at 2. Under amended § 40.3(A), the CBA
states that “[u]pon receipt of the employee’s written
authorization, the Employer [the State of Washington
here] will deduct from the employee’s salary an
amount equal to the dues required to be a member of
the Union.” Id., at 3. In amended § 40.6, the CBA
further provides that “[a]n employee may revoke his or
her authorization for payroll deduction of payments to
the Union by written notice to the Employer and the
Union in accordance with the terms and conditions of
their signed membership card.” Id., at 7. Article 40 of
the amended 2017-2019 CBA applies to the Plaintiffs
and around 26,800 other Washington state employees.
Dkt. 44, at 2.
After the June 27, 2018 Janus decision, each of the
Plaintiffs notified the Union and the State that they
no longer wanted to be Union members. Dkt. 44, at 5.
Plaintiffs are no longer Union members and do not

27a
have membership rights or access to Union benefits.
Id. The State continued/continues to deduct an
amount equal to the dues from their pay checks pursuant to the terms in the Plaintiffs’ 2017 membership
agreements and remitted/remits them to the Union.
Id. For Plaintiffs Belgau, Bybee, and Ostrander, the
one-year term expired in November 2018, so the State
stopped deducting an amount equal to Union dues
from their wages at that time. Id. When the one year
anniversary of the signing of their 2017 membership
agreement lapses for the remaining Plaintiffs, the last
will be in April of 2019, the State will end the deductions without further objection from the Plaintiffs. Id.
After the Plaintiffs filed this case, the Union agreed
to deposit, into a separate interest-bearing escrow
account, all dues that the Union received from each
Plaintiff after the date of each Plaintiff’s request to
resign from Union membership. Dkt. 44, at 6. The
Union will continue to do so until this case is resolved,
and will not use the dues to pay for any Union
activities or otherwise subsidize Union operations. Id.
B. PROCEDURAL HISTORY
On August 2, 2018, the Plaintiffs filed this putative
class action (1) challenging the constitutionality of
RCW 41.80.100 and the CBA provisions related to the
deduction of membership fees, as a violation of their
First Amendment rights, (2) asserting that the Defendants conspired to violate their constitutional
rights, and (3) claiming that the Union was unjustly
enriched. Dkt. 1. The Plaintiffs seek declaratory and
injunctive relief as well as monetary damages, costs
and attorneys’ fees. Id.
The same day Plaintiffs filed their complaint, they
filed a motion seeking a temporary restraining order

28a
“enjoining Defendants from deducting union dues/fees
from the wages of any Washington State employee in
a bargaining unit listed in Appendix A to the 20172019 [Collective Bargaining Agreement (“CBA”)] for
whom Defendants cannot provide clear and compelling
evidence that he or she clearly and affirmatively
consented, on or after June 27, 2018, to the deduction
of union dues by waiving his or her right to not fund
union advocacy, and from preventing Plaintiffs and
state employees from resigning union membership.”
Dkt. 2, at 2.
On August 8, 2018, Plaintiffs’ motion for a temporary restraining order was denied without prejudice.
Dkt. 11. The Plaintiffs renewed their motion to preliminarily enjoin the State from continuing to collect
Union membership dues because they had resigned
from the Union. Dkt. 33. That motion was denied on
October 11, 2018. Dkt. 37. It relied, in part, on the
reasoning in Fisk v. Inslee, 2017 WL 4619223 (W.D.
Wash. Oct. 16, 2017). Id. After that Order from this
Court was issued, Fisk was affirmed on appeal in an
unpublished decision. Fisk v. Inslee, 17-35957, 2019
WL 141253 (9th Cir. Jan. 9, 2019). The Ninth Circuit
held:
Appellees’ deduction of union dues in accordance with the membership cards’ dues irrevocability provision does not violate Appellants’
First Amendment rights. Although Appellants
resigned their membership in the union and
objected to providing continued financial support, the First Amendment does not preclude
the enforcement of “legal obligations” that are
bargained-for and “self-imposed” under state
contract law. Cohen v. Cowles Media Co., 501
U.S. 663, 668-71, 111 S. Ct. 2513, 115 L.Ed.2d

29a
586 (1991). The provisions authorizing the
withholding of dues and making that authorization irrevocable for certain periods were in
clear, readable type on a simple one-page
form, well within the ken of unrepresented or
lay parties. Moreover, temporarily irrevocable payment authorizations are common and
enforceable in many consumer contracts—
e.g., gym memberships or cell phone contracts—and we conclude that under state
contract law those provisions should be
similarly enforceable here.
Id., at 1. In Fiske, the Plaintiffs raised the issue of
whether they had properly waived their First Amendment rights for the first time; the Ninth Circuit
declined to reach the question. Id.
C. PENDING MOTIONS AND ORGANIZATION OF OPINION
The parties now file cross motions for summary
judgment (Dkts. 46-48) and have filed a “Stipulation
Regarding Facts for Cross Motions for Summary Judgment” (Dkt. 44), which they assert contain the facts
necessary to decide the motions. Responses have been
filed (Dkts. 52 54), as have replies (Dkts. 55 and 56).
This opinion will first consider the State Defendants’ motion for summary judgment for dismissal of all
Plaintiffs’ claims against the State Defendants for
retrospective relief, on claims asserted against them
under state law, based on the Eleventh Amendment,
and the State Defendants’ motion to dismiss the claim
for declaratory judgment as to the Washington
Attorney General, who is not a party to this case. Id.
This opinion will then turn to the parties’ cross
motions for summary judgment on the First Amend-

30a
ment claims and the remaining state law claim –
unjust enrichment.
II. DISCUSSION
A. STANDARD ON MOTION FOR SUMMARY
JUDGMENT
Summary judgment is proper only if the pleadings,
the discovery and disclosure materials on file, and any
affidavits show that there is no genuine issue as to any
material fact and that the movant is entitled to
judgment as a matter of law. Fed. R. Civ. P. 56 (c). The
moving party is entitled to judgment as a matter of law
when the nonmoving party fails to make a sufficient
showing on an essential element of a claim in the case
on which the nonmoving party has the burden of proof.
Celotex Corp. v. Catrett, 477 U.S. 317, 323 (1985).
There is no genuine issue of fact for trial where the
record, taken as a whole, could not lead a rational trier
of fact to find for the nonmoving party. Matsushita
Elec. Indus. Co. v. Zenith Radio Corp., 475 U.S. 574,
586 (1986)(nonmoving party must present specific,
significant probative evidence, not simply “some metaphysical doubt”). See also Fed. R. Civ. P. 56 (d).
Conversely, a genuine dispute over a material fact
exists if there is sufficient evidence supporting the
claimed factual dispute, requiring a judge or jury to
resolve the differing versions of the truth. Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 253 (1986); T.W.
Elec. Service Inc. v. Pacific Electrical Contractors
Association, 809 F.2d 626, 630 (9th Cir. 1987).
The determination of the existence of a material fact
is often a close question. The court must consider the
substantive evidentiary burden that the nonmoving
party must meet at trial – e.g., a preponderance of the
evidence in most civil cases. Anderson, 477 U.S. at 254,

31a
T.W. Elect. Service Inc., 809 F.2d at 630. The court
must resolve any factual issues of controversy in favor
of the nonmoving party only when the facts specifically
attested by that party contradict facts specifically
attested by the moving party. The nonmoving party
may not merely state that it will discredit the moving
party’s evidence at trial, in the hopes that evidence can
be developed at trial to support the claim. T.W. Elect.
Service Inc., 809 F.2d at 630 (relying on Anderson,
supra). Conclusory, non-specific statements in affidavits are not sufficient, and “missing facts” will not be
“presumed.” Lujan v. National Wildlife Federation,
497 U.S. 871, 888-89 (1990).
B. ELEVENTH AMENDMENT AND NONPROSPECTIVE
RELIEF
SOUGHT
AGAINST THE STATE DEFENDANTS
The Plaintiffs make claims against the State and
against individual state officials, in their official
capacities only, for retrospective and prospective relief
for the alleged constitutional violations and under
state law. Dkt. 1. Claims against state or county
officials, in their official capacities, are considered
claims against the state. Will v. Michigan Dept. of
State Police, 491 U.S. 48 (1989).
1. Claims for Federal Constitutional Violations that Seek Non-Prospective Relief
Against the State and the Individual
State Officials
In order to state a claim under 42 U.S.C. § 1983, a
complaint must allege that (1) the conduct complained
of was committed by a person acting under color of
state law, and that (2) the conduct deprived a person
of a right, privilege, or immunity secured by the
Constitution or laws of the United States. Parratt v.

32a
Taylor, 451 U.S. 527, 535 (1981), overruled on other
grounds, Daniels v. Williams, 474 U.S. 327 (1986).
States (or state officers acting in their official capacity)
are not “persons” for purposes of damages for § 1983
liability. Will v. Michigan Dep’t of State Police, 491
U.S. 58, 66 (1989); Doe v. Lawrence Livermore Nat’l
Lab., 131 F.3d 836, 839 (9th Cir. 1997). “However,
there is one exception to this general rule: when sued
for prospective injunctive relief, a state official in his
official capacity is considered a ‘person’ for § 1983
purposes.” Doe, at 839 (emphasis in original).
To the extent that the Plaintiffs’ assert constitutional claims under 42 U.S.C. § 1983 against the State
Defendants for which they seek damages, or any other
relief aside from prospective relief, those claims should
be dismissed. The only relief available to the Plaintiffs
from the State Defendants is prospective relief for the
alleged constitutional violations. The State Defendants’ motion for summary judgment on all Plaintiffs’
claims for which they seek non-prospective relief
should be granted.
2. Claims Other than State Claims asserted
Against the State and State Officers in
their Official Capacities
The Eleventh Amendment provides: “[t]he Judicial
power of the United States shall not be construed to
extend to any suit in law or equity, commenced or
prosecuted against one of the United States by
Citizens of another State, or by Citizens or Subjects of
any Foreign State.” “The Eleventh Amendment has
been authoritatively construed to deprive federal
courts of jurisdiction over suits by private parties
against unconsenting States” Seven Up Pete Venture v.
Schweitzer, 523 F.3d 948, 953 (9th Cir. 2008), unless
the private parties are seeking prospective relief for

33a
constitutional violations, Ex Parte Young, 209 U.S.
123 (1908).
To the extent the Plaintiffs’ make claims other than
claims for prospective relief for constitutional violations against the State Defendants, those claims
should be dismissed. The State Defendants have not
waived their Eleventh Amendment immunity as to
those claims. The State Defendants’ motion to have
those claims dismissed as barred by the Eleventh
Amendment should be granted. The Plaintiffs’ motion
for summary judgment on claims asserted against the
State Defendants, except for the First Amendment
claim which seeks prospective relief, should be denied.
C. CLAIMS FOR DECLARATORY RELIEF
AGAINST NON-PARTY WASHINGTON
ATTORNEY GENERAL
The Plaintiffs seek “Declaratory Judgment that the
Washington [Attorney General’s] policy related to the
application of Janus . . . to [Union] represented State
employees . . . is unconstitutional and of no effect.”
Dkt. 21, at 18.
Under Article III, a federal court cannot consider the
merits of a legal claim unless the person seeking to
invoke the jurisdiction of the court establishes the
requisite standing to sue. Whitmore v. Arkansas, 495
U.S. 149 (1990). A litigant demonstrates standing by
showing that he or she has suffered an injury in fact
that is fairly traceable to the challenged action and is
redressable by a favorable judicial decision. Steel
Company v. Citizens for a Better Environment, 118
S.Ct. 1003, 1017 (1998).
The State Defendants’ motion for summary judgment of this claim should be granted. The Plaintiffs
have failed to name the Washington Attorney General

34a
in this lawsuit. They failed to show that they suffered
an injury in fact as a result of an advisory opinion
given by the Washington Attorney General. They
make no showing that an alleged injury would be
addressed by the relief they seek. The claim should be
dismissed.
D. CLAIMS FOR VIOLATION OF THE FIRST
AMENDMENT
The Plaintiffs assert claims against the Union and
the State Defendants for violation of their First
Amendment rights pursuant to 42 U.S.C. § 1983.
1. First Amendment Claims Against the
Union – State Action?
As stated above, in order to maintain a claim under
§ 1983, a Plaintiff must show that (1) the conduct complained of was committed by a person acting under
color of state law, and that (2) the conduct deprived a
person of a right, privilege, or immunity secured by the
Constitution or laws of the United States. Parratt v.
Taylor, 451 U.S. 527, 535 (1981), overruled on other
grounds, Daniels v. Williams, 474 U.S. 327 (1986).
“The state-action element in § 1983 excludes from its
reach merely private conduct, no matter how discriminatory or wrongful.” Caviness v. Horizon Cmty.
Learning Ctr., Inc., 590 F.3d 806, 812 (9th Cir.
2010)(internal quotation marks and citations omitted).
“[C]onstitutional standards are invoked only when it
can be said that the State is responsible for the specific
conduct of which the plaintiff complains.” Naoko Ohno
v. Yuko Yasuma, 723 F.3d 984, 994 (9th Cir. 2013).
A two-prong framework is used “for analyzing when
governmental involvement in private action is itself
sufficient in character and impact that the govern-

35a
ment fairly can be viewed as responsible for the harm
of which the plaintiff complains.” Naoko, at 994. The
first prong considers “whether the claimed constitutional deprivation resulted from the exercise of some
right or privilege created by the State or by a rule of
conduct imposed by the state or by a person for whom
the State is responsible.” Id. “The second prong determines whether the party charged with the deprivation
could be described in all fairness as a state actor.” Id.
a. Whether the Claimed Deprivation
Resulted from the Exercise of Some
Right or Privilege or by a Rule of
Conduct Imposed by the State
The claimed deprivation did not result in the
exercise of some right or privilege or by a rule of
conduct imposed by the State. Plaintiffs now
acknowledge that the First Amendment does not bar
the State’s deduction of Union fees from a valid dues
agreement. Dkt. 56. They dispute whether the agreements they signed are valid. Plaintiffs repeatedly
assert that they are harmed because the agreements
were insufficient-whether because they did not
properly waived their constitutional rights, or the
agreements were not supported by consideration, or
were obtained by duress because they were given
“alternative perils” (either sign the agreement or pay
the now unconstitutional agency fee agreements or be
fired), etc. The Plaintiffs fail to show that the contents
of the agreements are in any way attributable to the
State. The parties agree that the State Defendants did
not play any role in drafting or in the formation of the
agreements here. They agree that the Union, a private
entity, drafted the agreements and asked the Plaintiffs to sign them. RCW 41.80.100 and the Article 40 of
the amended CBA are silent on what terms and

36a
conditions are in the agreements. Indeed, state law
prohibits the State from interfering in the formation
or administration of the Union. RCW 41.80.110(1)(b).
While the Plaintiffs attempt to recast their claim and
argue that it is the State deductions that are issue, at
the same time, they acknowledge that the deductions
are constitutional if the agreements are valid. At its
core, then, the source of the alleged constitutional
harm is the sufficiency of the agreements, not the
procedure for their collection that the State agreed to
follow. “The claimed constitutional deprivation cannot
be traced to a right, privilege, or rule of conduct
imposed by a governmental entity.” Naoko, at 994.
This prong is not met.
b. Whether the Party Charged with the
Deprivation is a State Actor
Even if the first prong is met, the Plaintiffs have
failed to show that the Union is a state actor. The
“inquiry begins by identifying the specific conduct of
which the plaintiff complains. . . because an entity may
be a State actor for some purposes but not for others.”
Caviness, at 812- 813 (internal citations omitted).
The Plaintiffs assert that their First Amendment
rights were violated when the Union offered, and the
Plaintiffs accepted, the initial membership agreement
and the 2017 dues authorization agreement (that contains the one year non-revocable dues paying provision), both of which failed to contain a valid waiver of
their constitutional rights or were otherwise invalid,
and the State Defendants still deducted the Union
dues. To maintain a federal constitutional claim, the
issue is whether the Union’s actions amount to state
action.

37a
“The Supreme Court has articulated four tests for
determining whether a non-governmental person’s
actions amount to state action: (1) the public function
test; (2) the joint action test; (3) the state compulsion
test; and (4) the governmental nexus test.” Naoko, at
995 (internal quotation marks and citations omitted).
Each will be considered below.
(i) Public Function
“Under the public function test, when private individuals or groups are endowed by the State with
powers or functions governmental in nature, they
become agencies or instrumentalities of the State and
subject to its constitutional limitations.” Florer v.
Congregation Pidyon Shevuyim, N.A., 639 F.3d 916,
924 (9th Cir. 2011) (internal quotation marks omitted).
There is no showing that the Union was endowed by
the State “with powers or functions governmental in
nature.” Florer, at 924. The evidence in the record is
that the Union was functioning as a union. The statute
challenged by the Plaintiffs, RCW 41.80.110, and
Article 40 of the CBA do not vest the Union with
authority reserved to the government. Because “[t]he
public function test is satisfied only on a showing that
the function at issue is ‘both traditionally and
exclusively governmental,” and no such showing has
been made here, the public function test is not met. Id.
(ii) Joint Action
“‘Joint action’ exists where the government affirms,
authorizes, encourages, or facilitates unconstitutional
conduct through its involvement with a private party,
or otherwise has so far insinuated itself into a position
of interdependence with the non-governmental party
that it must be recognized as a joint participant in the

38a
challenged activity.” Naoko, at 996 (internal quotation
marks and citations omitted).
There is no showing that joint action exists here –
that “state officials and private parties have acted in
concert” to deprive the Plaintiffs of their constitutional
rights. Naoko, at 996. There is no evidence that the
State Defendants “affirm[], authorize[], encourage[],
or facilitate[]” the contents of the agreements or have
so “far insinuated [themselves] into a position of
interdependence with the [Union] that it must be
recognized as a joint participant in the challenged
activity.” Naoko, at 996. The State Defendants are
prohibited from playing a role in the content of the
agreements between the Plaintiffs and the Union.
Even if the State Defendants approved of the contents
of the agreements, of which there is no evidence,
“[a]ction taken by private entities with the mere
approval or acquiescence of the State is not state
action.” Caviness, at 817. The State Defendants’ “mandatory indifference to the underlying merits,” content,
or validity of the agreements “refutes any characterization” by the Plaintiffs of a joint action between
the State Defendants and the Union as to the “aspects
of the [agreements] alleged to compromise” the
Plaintiffs’ First Amendment rights. Naoko, at 997. The
Plaintiffs argue that they seek recovery, not only for
the continued deduction of dues after Janus (and their
notification that they no longer wished to be Union
members), but also seek recovery for deductions of
compelled agency fees before Janus was decided,
which was authorized by a Washington statute at the
time. The Plaintiffs make no showing that Janus
should be given retroactive effect in a manner that
would allow them to bootstrap such a claim. Janus
specifically stated that its holding was limited, providing that, “States can keep their labor-relations

39a
systems exactly as they are – only they cannot force
nonmembers to subsidize public-sector unions.”
Janus, at 2485, n. 27 (emphasis added).
While the Plaintiffs assert that it is RCW 41.80.100
that is the source of the Union’s authority to impose a
fee on nonmembers (Dkt. 56, at 15), that argument is
without merit. It is the agreements themselves that
authorize the Union to collect dues in exchange for
benefits. Even in the absence of RCW 41.80.100 or
Article 40 of the CBA, the Union could attempt to
enforce the agreements to pay dues independently, in
a breach of contract action. RCW 41.80.100 and Article
40 of the CBA only require the State Defendants to
perform an administrative task - after the Plaintiffs
provided express written authorization for dues to be
paid for a year, the State Defendants are to deduct
those dues and send them to the Union. The State
points out that it does this for other entities with
periods of payment that are not revocable for a set
period of time, like for the retirement plan and health
plan. Dkt. 47, at 17. Moreover, there is no evidence
that the State Defendants “in any meaningful way
accept[] benefits derived from the allegedly unconstitutional actions.” Naoko, at 997. There is no
evidence in the record that the substance of the
agreements are the product of joint action with Union
and the State Defendants.
(iii) State Compulsion
Under the state compulsion test, “[a] state may be
responsible for a private entity’s actions if it has
exercised coercive power or has provided such significant encouragement, either overt or covert, that the
choice must in law be deemed to be that of the State.”
Caviness, at 816.

40a
There is no evidence in this case that the State
Defendants have “exercised coercive power” over the
Union in regard to the agreements at issue. Caviness,
at 816. The agreements at issue were made by private
parties without standards established by the state.
Further, there is no evidence that the State has provided significant “overt or covert” encouragement that
the actions alleged to be unconstitutional here must
“be deemed to be that of the State.” Id. The requirements for the state compulsion test are not met.
(vi) Government Nexus
“Under the governmental nexus test, a private party
acts under color of state law if there is a sufficiently
close nexus between the State and the challenged
action of the regulated entity so that the action of the
latter may be fairly treated as that of the State itself.”
Naoko, at 996, n.13.
This test is not met. There is no evidence that there
is a “sufficiently close nexus between the State” and
the content and or validity of the agreements “so that
the action of the latter may be fairly treated as that of
the State itself.” The agreements at issue are between
private parties.
c. Conclusion on State Action
The Plaintiffs’ motion for summary judgment as to
their First Amendment claim against the Union
should be denied and the Union’s motion for summary
judgment should be granted. There is no evidence that
the claimed constitutional deprivation here resulted
from “the exercise of some right or privilege created by
the state or by a rule of conduct imposed by the state
or by a person for whom the State is responsible.”
Naoko, at 996. There is no evidence that the Union

41a
“could be described in all fairness as a state actor,” Id.,
under any of the four tests. The State Defendants’
obligation to deduct fees in accordance with the
authorization “agreements does not transform decisions about membership requirements [that they pay
dues for a year] into state action.” See Bain v.
California Teachers Ass’n, 2016 WL 6804921, at *7
(C.D. Cal. May 2, 2016). The First Amendment claim
against the Union should be dismissed. Because the
Plaintiffs’ constitutional claim fails at the state action
stage, no decision is necessary on whether the initial
or 2017 membership agreements violate the First
Amendment. Naoko, at 1000.
2. First Amendment Claim
Against the State Defendants

Asserted

As above, all Plaintiffs’ claims for relief against the
State Defendants are dismissed because States are not
“a person” under § 1983 and by operation of the
Eleventh Amendment, except claims under § 1983
which seek prospective relief. The Plaintiffs First
Amendment claims against the State Defendants,
then relate only to RCW 41.80.100, as amended, and
Article 40 of the amended CBA, which are currently in
effect, and only for prospective relief.
The Plaintiffs assert that RCW 41.80.100 and the
CBA compel the State to “deduct union dues/fees from
the Plaintiffs’ . . . wages even though they have not
clearly and affirmatively consented to the deductions”
and so violate the First Amendment.
The Plaintiffs’ motion for summary judgment
against the State Defendants for violation of their
First Amendment rights should be denied and the
State Defendants’ motion for summary judgment
should be granted. RCW 41.80.100 provides that upon

42a
the Plaintiffs’ written authorization, the State is
obligated to “deduct[] from the payments to bargaining
unit members the dues required for membership in the
[Union].” RCW § 41.80.100 (3)(b)(i). Likewise, as
amended in July of 2018, § 40.2 of the CBA provides:
The Employer agrees to deduct an amount
equal to the membership dues from the salary
of employees who request such deduction in
writing within thirty (30) days of receipt of a
properly completed request submitted to the
appropriate agency payroll office. Such
requests will be made on a Union payroll
deduction authorization card. The Employer
will honor the terms and conditions of each
employee’s signed membership card.
Dkt. 44-3, at 2. Under amended § 40.3(A), the CBA
states that “[u]pon receipt of the employee’s written
authorization, the Employer [the State of Washington
here] will deduct from the employee’s salary an
amount equal to the dues required to be a member of
the Union.” Id., at 3. In amended § 40.6, the CBA
further provides that “[a]n employee may revoke his or
her authorization for payroll deduction of payments to
the Union by written notice to the Employer and the
Union in accordance with the terms and conditions of
their signed membership card.” Id., at 7. The 2017
membership agreement, entitled “Payroll Deduction
Authorization & Maintenance of Membership Card,”
provided, in part:
Yes! I stand united with my fellow State
employees . . . 100% Union . . .
Yes! I want to be a union member. . .
Effective immediately, I hereby voluntarily
authorize and direct my Employer to deduct

43a
from my pay each period, the amount of dues
as set in accordance with the [Union] Constitution and By-Laws and authorize my
Employer to remit such amount semi-monthly
to the Union (currently 1.5% of my salary per
pay period not to exceed the maximum). This
voluntary authorization and assignment shall
be irrevocable for a period of one year from
the date of execution or until the termination
date of the collective bargaining agreement (if
there is one) between the Employer and the
Union, whichever occurs sooner, and for year
to year thereafter unless I give the Employer
and the Union written notice of revocation not
less than ten (10) days and not more than
twenty (20) days before the end of any yearly
period, regardless of whether I am or remain
a member of the Union, unless I am no longer
in active pay status in a [Union] bargaining
unit; provided however, if the applicable
collective-bargaining agreement specifies a
longer or different revocation period, then
only that period shall apply. This card
supersedes any prior check-off authorization
card I signed. I recognize that my authorization of dues deductions, and the continuation
of such authorization from one year to the
next, is voluntary and not a condition of my
employment.
Dkts. 44-11 to 44-17.
The plain language of RCW 41.80.100 and the CBA
do not compel involuntary dues deductions and do not
violate the First Amendment. The parties do not
dispute that all the Plaintiffs here signed the membership agreements and that they did not need to do so as

44a
a condition of their employment. The parties do not
dispute that the State plays no role in deciding what
terms and conditions are in the membership agreements; and under state law, cannot participate in any
way in making those determinations. The State’s
deduction of dues from the Plaintiffs’ pay is pursuant
to the Plaintiffs’ explicit written instructions in the
2017 agreements. The fact that the Plaintiffs are now
challenging the constitutional validity of the underlying agreements does not lead to liability for the State,
especially where the State is prohibited from interfering with Union activity. Further, Plaintiffs’ assertions
that the agreements are not valid because they had
not waived their First Amendment rights under Janus
in their authorization agreements because they did
not know of those rights yet, is without merit.
Plaintiffs seek a broad expansion of the holding in
Janus. Janus does not apply here – Janus was not a
union member, unlike the Plaintiffs here, and Janus
did not agree to a dues deduction, unlike the Plaintiffs
here. See Cooley v. California Statewide Law Enforcement Ass’n, 2019 WL 331170, at 2 (E.D. Cal. Jan. 25,
2019). “The relationship between unions and their
voluntary members was not at issue in Janus.” Id. The
notion that the Plaintiffs may have made a different
choice if they knew “the Supreme Court would later
invalidate public employee agency fee arrangements
[in Janus] does not void” their previous knowing
agreements. Id.
To the extent that the Plaintiffs now argue that the
membership agreement was not supported by consideration, is invalid due to mistake, was made under
duress, or make some other assertion of validity based
on contract law, they make no showing that the State
Defendants are now liable under the First Amendment for those alleged failings. To do so would require

45a
the State Defendants to make a judgment about the
validity of the contracts the Union and its members
choose to enter, something the State is prohibited from
doing. The State is not a party to the membership
agreement. The Plaintiffs “cannot now invoke the
First Amendment to wriggle out of [their] contractual
duties.” See Smith v. Superior Court, County of Contra
Costa, 2018 WL 6072806 (N.D. Cal. Nov. 16, 2018).
The Plaintiffs’ First Amendment claims asserted
against the State Defendants should be dismissed.
3. Conspiracy Claim for Violation of the
First Amendment Asserted Against all
Defendants
As stated above, Plaintiffs’ First Amendment claims
against the Union and State Defendants should be dismissed. Their conspiracy claim, which is predicated on
the alleged First Amendment violations, also fails.
Woodrum v. Woodward County, Okla., 866 F.2d 1121,
1126 (9th Cir. 1996). Further, the Plaintiffs do not to
point to any evidence in the record to support their
claim. The Plaintiffs’ conspiracy claim should be
dismissed.
E. CLAIMS FOR UNJUST ENRICHMENT
AGAINST THE UNION
The Plaintiffs make claims for unjust enrichment
against the Union. (Due to the operation of the Eleventh Amendment, the unjust enrichment claims
against the State Defendants should be dismissed, as
explained above.) Both the Plaintiffs and the Union
move for summary judgment on this claim.
The elements of unjust enrichment are: “(1) the
defendant receives a benefit, (2) the received benefit is
at the plaintiff's expense, and (3) the circumstances
make it unjust for the defendant to retain the benefit

46a
without payment.” Young v. Young, 164 Wn.2d 477,
484–85 (2008). “Unjust enrichment is the method of
recovery for the value of the benefit retained absent
any contractual relationship because notions of fairness and justice require it.” Id., at 484.
The parties here have a contractual relationship.
The Plaintiffs’ unjust enrichment claims are related to
the same matter upon which they seek recovery. The
unjust enrichment claims should be dismissed.
Moreover, even if the parties did not have a written
contractual relationship, the Plaintiffs have failed to
show that there is sufficient evidence in the circumstances here that it would be unjust for the Union to
retain the dues. The Plaintiffs acknowledge that as
Union members they received benefits and rights not
available to non-members. Further, even after they
announced that they no longer wanted to be Union
members, it is not unjust for them to have to continue
to pay dues for a limited time because that is what
they agree to. The Plaintiffs have failed to show that
the Union was unjustly enriched.
F. CONCLUSION
By this Order, all claims should be dismissed. This
case should be closed.
III. ORDER
It is ORDERED that:


The State Defendants’ Motion for Summary
Judgment (Dkt. 47) IS GRANTED;



The Union’s Motion for Summary Judgment
(Dkt. 46) IS GRANTED; and



47a
The Plaintiffs’ Cross-Motion for Summary
Judgment (Dkt. 48) IS DENIED.



This case IS DISMISSED.

The Clerk is directed to send uncertified copies of
this Order to all counsel of record and to any party
appearing pro se at said party’s last known address.
Dated this 15th day of February, 2019.
/s/ Robert J. Bryan
ROBERT J. BRYAN
United States District Judge

48a
APPENDIX C
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT TACOMA
[Filed February 19, 2019]
————
Case No. 3:18-cv-05620-RJB
————
MELISSA BELGAU, DONNA BYBEE,
RICHARD OSTRANDER, KATHRINE NEWMAN,
MIRIAN TORRES, GARY HONC, and MICHAEL STONE,
Plaintiffs,
v.
JAY INSLEE, in his official capacity as governor
of the State of Washington, DAVID SCHUMACHER,
in his official capacity as Director of the Washington
Office of Financial Management, JOHN WEISMAN,
in his official capacity as Director of the Washington
Department of Health, CHERYL STRANGE, in her
official capacity as Director of the Washington
Department of Social and Health Services, ROGER
MILLAR, in his official capacity as Director of the
Washington Department of Transportation, JOEL
SACKS, in his official capacity as Director of the
Washington Department of Labor and Industries,
and WASHINGTON FEDERATION OF STATE EMPLOYEES
(AFSCME, COUNSEL 28) a labor corporation,
Defendants.
————
CIVIL JUDGMENT
————

49a
Jury Verdict. This action came to consideration
before the Court for a trial by jury. The issues
have been tried and the jury has rendered its
verdict.
XX

Decision by Court. This action came to
consideration before the Court. The issues have
been considered and a decision has been
rendered.
THE COURT HAS ORDERED THAT


The State Defendants’ Motion for Summary Judgment (Dkt. 47) IS GRANTED;



The Union’s Motion for Summary Judgment (Dkt. 46) IS GRANTED; and



The Plaintiffs’ Cross-Motion for Summary Judgment (Dkt. 48) IS DENIED;



This case IS CLOSED.

Dated this 19th day of February, 2019.
William M. McCool
Clerk of Court
s/Tyler Campbell
Tyler Campbell, Deputy Clerk

50a
APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
[Filed October 26, 2020]
————
No. 19-35137
————
MELISSA BELGAU; et al.,
Plaintiffs-Appellants,
v.
JAY ROBERT INSLEE, in His Official Capacity as
Governor of the State of Washington; et al.,
Defendants-Appellees.
————
D.C. No. 3:18-cv-05620-RJB
Western District of Washington, Tacoma
————
ORDER
Before: McKEOWN and CHRISTEN, Circuit Judges,
and HARPOOL,* District Judge.
Judges McKeown and Christen have voted to deny
the petition for rehearing en banc, and Judge Harpool
so recommends.
The full court has been advised of the petition for rehearing en banc, and no judge has requested a vote on
whether to rehear the matter en banc. Fed. R. App. P. 35.
The petition for rehearing en banc is denied.
*

The Honorable M. Douglas Harpool, United States District
Judge for the Western District of Missouri, sitting by designation.

51a
APPENDIX E
U.S.C.A. Const. Amend. I
Amendment I. Establishment of Religion; Free
Exercise of Religion; Freedom of Speech and
the Press; Peaceful Assembly; Petition for
Redress of Grievances
Congress shall make no law respecting an establishment of religion, or prohibiting the free exercise thereof; or abridging the freedom of speech, or of the press;
or the right of the people peaceably to assemble, and
to petition the Government for a redress of grievances.
* * * *
U.S.C.A. Const. Amend. XIV
Amendment XIV. Citizenship; Privileges and
Immunities; Due Process; Equal Protection;
Appointment of Representation; Disqualification of
Officers; Public Debt; Enforcement
Section 1. All persons born or naturalized in the
United States, and subject to the jurisdiction thereof,
are citizens of the United States and of the State
wherein they reside. No State shall make or enforce
any law which shall abridge the privileges or immunities of citizens of the United States; nor shall any State
deprive any person of life, liberty, or property, without
due process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.
Section 2. Representatives shall be apportioned
among the several States according to their respective
numbers, counting the whole number of persons in
each State, excluding Indians not taxed. But when the
right to vote at any election for the choice of electors
for President and Vice President of the United States,
Representatives in Congress, the Executive and Judi-

52a
cial officers of a State, or the members of the Legislature thereof, is denied to any of the male inhabitants
of such State, being twenty-one years of age, and
citizens of the United States, or in any way abridged,
except for participation in rebellion, or other crime, the
basis of representation therein shall be reduced in the
proportion which the number of such male citizens
shall bear to the whole number of male citizens
twenty-one years of age in such State.
Section 3. No person shall be a Senator or Representative in Congress, or elector of President and Vice
President, or hold any office, civil or military, under
the United States, or under any State, who, having
previously taken an oath, as a member of Congress, or
as an officer of the United States, or as a member of
any State legislature, or as an executive or judicial
officer of any State, to support the Constitution of the
United States, shall have engaged in insurrection or
rebellion against the same, or given aid or comfort to
the enemies thereof. But Congress may by a vote of
two-thirds of each House, remove such disability.
Section 4. The validity of the public debt of the
United States, authorized by law, including debts
incurred for payment of pensions and bounties for
services in suppressing insurrection or rebellion, shall
not be questioned. But neither the United States nor
any State shall assume or pay any debt or obligation
incurred in aid of insurrection or rebellion against the
United States, or any claim for the loss or emancipation of any slave; but all such debts, obligations and
claims shall be held illegal and void.
Section 5. The Congress shall have power to enforce,
by appropriate legislation, the provisions of this article.
* * * *

53a
United States Code Annotated
Title 42. The Public Health and Welfare
Chapter 21. Civil Rights (Refs & Annos)
Subchapter I. Generally
42 U.S.C.A. § 1983
Effective: October 19, 1996
Currentness
§ 1983. Civil action for deprivation of rights
[Statutory Text & Notes of Decisions
subdivisions I to IX]
Every person who, under color of any statute, ordinance, regulation, custom, or usage, of any State or
Territory or the District of Columbia, subjects, or
causes to be subjected, any citizen of the United States
or other person within the jurisdiction thereof to the
deprivation of any rights, privileges, or immunities
secured by the Constitution and laws, shall be liable
to the party injured in an action at law, suit in equity,
or other proper proceeding for redress, except that in
any action brought against a judicial officer for an act
or omission taken in such officer's judicial capacity,
injunctive relief shall not be granted unless a declaratory decree was violated or declaratory relief was
unavailable. For the purposes of this section, any Act
of Congress applicable exclusively to the District of
Columbia shall be considered to be a statute of the
District of Columbia.

54a
Title 41. Public Employment, Civil Service, and
Pensions (Refs & Annos)
Chapter 41.80. State Collective Bargaining
(Refs & Annos)
RCWA 41.80.100. Employee authorization of
membership dues and other payments—Revocation
Effective: July 28, 2019
(1) Upon authorization of an employee within the
bargaining unit and after the certification or recognition of the bargaining unit’s exclusive bargaining
representative, the employer must deduct from the
payments to the employee the monthly amount of dues
as certified by the secretary of the exclusive bargaining representative and must transmit the same to the
treasurer of the exclusive bargaining representative.
(2)(a) If the employer and the exclusive bargaining
representative of a bargaining unit enter into a collective bargaining agreement that includes requirements
for deductions of other payments, the employer must
make such deductions upon authorization of the
employee.
(b) An employee’s written, electronic, or recorded voice authorization to have the employer
deduct membership dues from the employee’s salary must be made by the employee to the exclusive
bargaining representative. If the employer receives
a request for authorization of deductions, the
employer shall as soon as practicable forward the
request to the exclusive bargaining representative.
(c) Upon receiving notice of the employee’s
authorization, the employer shall deduct from the
employee’s salary membership dues and remit the
amounts to the exclusive bargaining representative.

55a
(d) The employee’s authorization remains in
effect until expressly revoked by the employee in
accordance with the terms and conditions of the
authorization.
(e) An employee’s request to revoke authorization for payroll deductions must be in writing and
submitted by the employee to the exclusive bargaining representative in accordance with the
terms and conditions of the authorization.
(f) After the employer receives confirmation
from the exclusive bargaining representative that
the employee has revoked authorization for deductions, the employer shall end the deduction no
later than the second payroll after receipt of the
confirmation.
(g) The employer shall rely on information provided by the exclusive bargaining representative
regarding the authorization and revocation of
deductions.
* * * *

56a
65th Legislature, 2018 Regular Session
Chapter 247
H.B. No. 2751
Labor Organizations—Dues—Deductions
An Act Relating to the deduction of union dues
and fees; and amending RCW 28B.52.045, 41.56.110,
41.59.060, 41.76.045, 41.80.100, and 49.39.080.
BE IT ENACTED BY THE LEGISLATURE OF THE
STATE OF WASHINGTON:
Sec. 1. RCW 28B.52.045 and 1987 c 314 s 8 are each
amended to read as follows:
WA ST 28B.52.045
(1) Upon filing with the employer the voluntary
written authorization of a bargaining unit employee
under this chapter, the employee organization which
is the exclusive bargaining representative of the
bargaining unit shall have the right to have deducted
from the salary of the bargaining unit employee the
periodic dues and initiation fees uniformly required
as a condition of acquiring or retaining membership
in the exclusive bargaining representative. Such
employee authorization shall not be irrevocable for a
period of more than one year. Such dues and fees shall
be deducted from the pay of all employees who have
given authorization for such deduction, and shall be
transmitted by the employer to the employee organization or to the depository designated by the employee
organization.
(2)(a) A collective bargaining agreement may include union security provisions, but not a closed shop.
If an agency shop or other union security provision is
agreed to, the employer shall enforce any such provision by deductions from the salary of bargaining unit

57a
employees affected thereby and shall transmit such
funds to the employee organization or to the depository designated by the employee organization.
(3) (b) Upon written authorization of an employee
within the bargaining unit and after the certification
or recognition of the bargaining unit’s exclusive bargaining representative, the employer must deduct
from the payments to the employee the monthly
amount of dues as certified by the secretary of the
exclusive bargaining representative and must transmit the same to the treasurer of the exclusive bargaining representative.
(c) If the employer and the exclusive bargaining
representative of a bargaining unit enter into a
collective bargaining agreement that:
(i) Includes a union security provision authorized under (a) of this subsection, the employer must enforce the agreement by deducting
from the payments to bargaining unit members
the dues required for membership in the
exclusive bargaining representative, or, for
nonmembers thereof, a fee equivalent to the
dues; or
(ii) Includes requirements for deductions of
payments other than the deduction under (c)(i)
of this subsection, the employer must make
such deductions upon written authorization of
the employee.
(2) An employee who is covered by a union security
provision and who asserts a right of nonassociation
based on bona fide religious tenets or teachings of a
church or religious body of which such employee is
a member shall pay to a nonreligious charity or
other charitable organization an amount of money

58a
equivalent to the periodic dues and initiation fees
uniformly required as a condition of acquiring or
retaining membership in the exclusive bargaining
representative. The charity shall be agreed upon by
the employee and the employee organization to which
such employee would otherwise pay the dues and fees.
The employee shall furnish written proof that such
payments have been made. If the employee and the
employee organization do not reach agreement on such
matter, the commission shall designate the charitable
organization.
Sec. 2. RCW 41.56.110 and 1973 c 59 s 1 are each
amended to read as follows:
WA ST 41.56.110
(1) Upon the written authorization of any public an
employee within the bargaining unit and after the
certification or recognition of such the bargaining
unit’s exclusive bargaining representative, the public
employer shall deduct from the pay of such public
payments to the employee the monthly amount of dues
as certified by the secretary of the exclusive bargaining representative and shall transmit the same to the
treasurer of the exclusive bargaining representative.
(2) If the employer and the exclusive bargaining
representative of a bargaining unit enter into a collective bargaining agreement that:
(a) Includes a union security provision authorized under RCW 41.56.122, the employer must
enforce the agreement by deducting from the
payments to bargaining unit members the
dues required for membership in the exclusive
bargaining representative, or, for nonmembers
thereof, a fee equivalent to the dues; or

59a
(b) Includes requirements for deductions of
payments other than the deduction under (a) of this
subsection, the employer must make such deductions upon written authorization of the employee.
Sec. 3. RCW 41.59.060 and 1975 1st ex.s. c 288 s 7 are
each amended to read as follows:
WA ST 41.59.060
(1) Employees shall have the right to selforganization, to form, join, or assist employee organizations, to bargain collectively through representatives of their own choosing, and shall also have the
right to refrain from any or all of such activities except
to the extent that employees may be required to pay a
fee to any employee organization under an agency
shop agreement authorized in this chapter.
(2) The exclusive bargaining representative shall
have the right to have deducted from the salary of
employees, upon receipt of an appropriate authorization form which shall not be irrevocable for a period of
more than one year, an amount equal to the fees
and dues required for membership. Such fees and
dues shall be deducted monthly from the pay of all
appropriate employees by the employer and transmitted as provided for by agreement between the
employer and the exclusive bargaining representative,
unless an automatic payroll deduction service is
established pursuant to law, at which time such fees
and dues shall be transmitted as therein provided. If
an agency shop provision is agreed to and becomes
effective pursuant to RCW 41.59.100, except as
provided in that section, the agency fee equal to the
fees and dues required of membership in the exclusive
bargaining representative shall be deducted from the
salary of employees in the bargaining unit. (a) Upon

60a
written authorization of an employee within the
bargaining unit and after the certification or recognition of the bargaining unit’s exclusive bargaining
representative, the employer must deduct from the
payments to the employee the monthly amount of dues
as certified by the secretary of the exclusive bargaining representative and must transmit the same to the
treasurer of the exclusive bargaining representative.
(b) If the employer and the exclusive bargaining
representative of a bargaining unit enter into a
collective bargaining agreement that:
(i) Includes a union security provision authorized under RCW 41.59.100, the employer
must enforce the agreement by deducting from
the payments to bargaining unit members the
dues required for membership in the exclusive
bargaining representative, or, for nonmembers
thereof, a fee equivalent to the dues; or
(ii) Includes requirements for deductions of
payments other than the deduction under (b)(i)
of this subsection, the employer must make
such deductions upon written authorization of
the employee.
Sec. 4. RCW 41.76.045 and 2002 c 356 s 12 are each
amended to read as follows:
WA ST 41.76.045
(1) Upon filing with the employer the voluntary
written authorization of a bargaining unit faculty
member under this chapter, the employee organization which is the exclusive bargaining representative
of the bargaining unit shall have the right to have
deducted from the salary of the bargaining unit faculty
member the periodic dues and initiation fees uni-

61a
formly required as a condition of acquiring or retaining membership in the exclusive bargaining representative. Such employee authorization shall not be
irrevocable for a period of more than one year. Such
dues and fees shall be deducted from the pay of
all faculty members who have given authorization
for such deduction, and shall be transmitted by the
employer to the employee organization or to the
depository designated by the employee organization.
(2)(a) A collective bargaining agreement may include union security provisions, but not a closed shop.
If an agency shop or other union security provision
is agreed to, the employer shall enforce any such
provision by deductions from the salary of bargaining
unit faculty members affected thereby and shall transmit such funds to the employee organization or to the
depository designated by the employee organization.
(b) Upon written authorization of an employee
within the bargaining unit and after the certification or recognition of the bargaining unit’s
exclusive bargaining representative, the employer
must deduct from the payments to the employee
the monthly amount of dues as certified by the
secretary of the exclusive bargaining representative and must transmit the same to the treasurer
of the exclusive bargaining representative.
(c) If the employer and the exclusive bargaining
representative of a bargaining unit enter into a
collective bargaining agreement that:
(i) Includes a union security provision authorized under (a) of this subsection, the employer must enforce the agreement by deducting
from the payments to bargaining unit members
the dues required for membership in the exclu-

62a
sive bargaining representative, or, for nonmembers thereof, a fee equivalent to the dues; or
(ii) Includes requirements for deductions of
payments other than the deduction under (c)(i)
of this subsection, the employer must make
such deductions upon written authorization of
the employee.
(2) A faculty member who is covered by a union
security provision and who asserts a right of nonassociation based on bona fide religious tenets or
teachings of a church or religious body of which such
faculty member is a member shall pay to a nonreligious charity or other charitable organization an
amount of money equivalent to the periodic dues and
initiation fees uniformly required as a condition of
acquiring or retaining membership in the exclusive
bargaining representative. The charity shall be agreed
upon by the faculty member and the employee organization to which such faculty member would otherwise
pay the dues and fees. The faculty member shall
furnish written proof that such payments have been
made. If the faculty member and the employee organization do not reach agreement on such matter, the
dispute shall be submitted to the commission for
determination.
Sec. 5. RCW 41.80.100 and 2002 c 354 s 311 are each
amended to read as follows:
WA ST 41.80.100
(1) A collective bargaining agreement may contain
a union security provision requiring as a condition of
employment the payment, no later than the thirtieth
day following the beginning of employment or July 1,
2004, whichever is later, of an agency shop fee to the
employee organization that is the exclusive bargaining

63a
representative for the bargaining unit in which the
employee is employed. The amount of the fee shall be
equal to the amount required to become a member in
good standing of the employee organization. Each
employee organization shall establish a procedure by
which any employee so requesting may pay a representation fee no greater than the part of the membership fee that represents a pro rata share of expenditures for purposes germane to the collective bargaining process, to contract administration, or to pursuing
matters affecting wages, hours, and other conditions
of employment.
(2) An employee who is covered by a union security
provision and who asserts a right of nonassociation
based on bona fide religious tenets, or teachings of a
church or religious body of which the employee is a
member, shall, as a condition of employment, make
payments to the employee organization, for purposes
within the program of the employee organization as
designated by the employee that would be in harmony
with his or her individual conscience. The amount of
the payments shall be equal to the periodic dues and
fees uniformly required as a condition of acquiring or
retaining membership in the employee organization
minus any included monthly premiums for insurance
programs sponsored by the employee organization.
The employee shall not be a member of the employee
organization but is entitled to all the representation
rights of a member of the employee organization.
(3) Upon filing with the employer the written
authorization of a bargaining unit employee under
this chapter, the employee organization that is the
exclusive bargaining representative of the bargaining
unit shall have the exclusive right to have deducted
from the salary of the employee an amount equal to

64a
the fees and dues uniformly required as a condition of
acquiring or retaining membership in the employee
organization. The fees and dues shall be deducted each
pay period from the pay of all employees who have
given authorization for the deduction and shall be
transmitted by the employer as provided for by
agreement between the employer and the employee
organization. (a) Upon written authorization of an
employee within the bargaining unit and after the
certification or recognition of the bargaining unit’s
exclusive bargaining representative, the employer
must deduct from the payments to the employee the
monthly amount of dues as certified by the secretary
of the exclusive bargaining representative and must
transmit the same to the treasurer of the exclusive
bargaining representative.
(b) If the employer and the exclusive bargaining
representative of a bargaining unit enter into a
collective bargaining agreement that:
(i) Includes a union security provision authorized under subsection (1) of this section,
the employer must enforce the agreement by
deducting from the payments to bargaining unit
members the dues required for membership in
the exclusive bargaining representative, or, for
nonmembers thereof, a fee equivalent to the
dues; or
(ii) Includes requirements for deductions of
payments other than the deduction under (b)(i)
of this subsection, the employer must make
such deductions upon written authorization of
the employee.

65a
(4) Employee organizations that before July 1,
2004, were entitled to the benefits of this section shall
continue to be entitled to these benefits.
Sec. 6. RCW 49.39.080 and 2010 c 6 s 9 are each
amended to read as follows:
WA ST 49.39.080
(1) Upon the written authorization of any symphony musician an employee within the bargaining
unit and after the certification or recognition of the
bargaining unit’s exclusive bargaining representative,
the employer must deduct from the pay of the
symphony musician payments to the employee the
monthly amount of dues as certified by the secretary
of the exclusive bargaining representative and must
transmit the dues same to the treasurer of the
exclusive bargaining representative.
(2) If the employer and the exclusive bargaining
representative of a bargaining unit enter into a collective bargaining agreement that:
(a) Includes a union security provision authorized under RCW 49.39.090, the employer must
enforce the agreement by deducting from the
payments to bargaining unit members the dues
required for membership in the exclusive bargaining representative, or, for nonmembers thereof, a
fee equivalent to the dues; or
(b) Includes requirements for deductions of payments other than the deduction under (a) of this
subsection, the employer must make such deductions upon written authorization of the employee.
Approved March 23, 2018.
Effective June 7, 2018.

66a
APPENDIX F
MEMORANDUM OF UNDERSTANDING
BETWEEN
THE STATE OF WASHINGTON
AND

WASHINGTON FEDERATION OF STATE EMPLOYEE
The parties agree to modify Article 40, Dues Deduction/Status Reports, of the 2017-2019 Collective Bargaining Agreement between the Slate of Washington
and the Washington Federation of State Employees as
follows:
ARTICLE 40
UNION DUES DEDUCTION/ AND STATUS REPORTS
40.21 Notification to Employees
The Employer will inform new, transferred, promoted, or demoted employees in writing prior to
appointment into positions included in the bargaining unit(s) of the Union’s exclusive recognition and the union security provision representation status. Upon appointment to a bargaining unit position. Tthe Employer will furnish the employees appointed into bargaining
unit positions with a payroll deduction authorization formmembership materials provided by
the Union. The Employer will inform employees
in writing, with a copy to the Union, when if
they are subsequently appointed to a position
that is not in a bargaining unit.
40.42 Deduction Authorization
The Employer agrees to deduct the an amount
equal to the membership dues, agency shop fee,
non-association fee, or representation fee from

67a
the salary of employees who request such
deduction in writing within thirty (30) days of
receipt of a properly completed request submitted to the appropriate agency payroll office.
Such requests will be made on a Union payroll
deduction authorization card. The Employer
will honor the terms and conditions of each
employee’s signed membership card.
40.43 Union Dues
A. When an employee provides Upon receipt of
the employee’s written authorization to the
Employer, the Union has the right to have
Employer will deducted from the employee’s
salary an amount equal to the fees or dues
required to be a member of the Union. The
Employer will provide payments for all said
the deductions to the Union at the Union’s
official headquarters each pay period.
B. Forty-five (45) calendar days prior to any
change in dues and/or fees, the Union will
provide the Office of Financial Management/State Human Resources, Labor Relations Section the percentage and maximum
dues and/or fees be deducted from the
employee’s salary.
40.3 Union Security
All employees covered by this Agreement will,
as a condition of employment, either become
members of the Union and pay membership
dues, or, as non-members, pay a fee as described
in Subsections 40.3 A, B, and C below, no later
that the 30th day following the effective date of

68a
this Agreement or the beginning of their
employment.
A. Employees who choose not to become union
members must pay to the Union, no later
that the 30th day following the beginning of
employment, and agency shop fee equal to
the amount required to be a member in good
standing of the Union
B. An employee who does not join the Union
based on bona fide religious tenants, or
teachings of a church or religious body of
which he or she is a member, will make payments to the Union that are equal to its
membership dues, less monthly union insurance premiums, if any. These payments will
be used for purposes withing the program of
the Union that are in harmony with the
employee’s conscience. Such employees will
not be members of the union, but are entitled
to all of the representational rights of union
members.
C. The Union will establish a procedure that
any employee who makes a request much
pay a representation fee equal to a pro rata
share of the full membership fee that is
related to collective bargaining, contract
administration and the pursuit of matters
affecting wages, hours and other terms and
conditions of employment rather than the
full membership fee.
D. If an employee fails to meet the union security provisions outlined above, the Union
may notify the Employer. If the Union notifies the Employer, the Union will inform the

69a
employee that his or her employment may be
terminated
40.64 Voluntary Deductions
A. PEOPLE
1. The Employer agrees to deduct from the
wages of any employee who is a member
of the Union deduction for the PEOPLE
program. Written authorizations must be
requested in writing by the employee and
may be revoked by the employee at any
time by giving written notice to both the
Employer and the Union. The Employer
agrees to remit electronically, on each
state payday, any deductions made to the
Union together with an electronic report
showing:
a. Employee name;
b. Personnel number;
c. Amount deducted; and
d. Deduction code.
2. The parties agree this section satisfies
the Employer’s obligations and provides
for the deduction authorized under RCW
41.04.230.
B. Public Safety Protection Program (PSPP)
The Employer agrees to deduct from the
wages of any employee who is a member of
the Union deductions for the WFSE/AFSCME
PSPP, Written authorizations must be on
the WFSE/AFSCME Council 28 PSPP Voluntary Payroll Deduction Authorization
form. Deductions will include a one-time

70a
initial deduction amount and ongoing
monthly deduction amount. Authorizations
may be revoked by the employee at any time
by giving written notice to both the
Employer and the Union. The Employer
agrees to remit electronically, on each state
payday, any deductions made to the Union
together with an electronic report showing:
1. Employee name;
2. Personnel number;
3. Amount deducted; and
4. Deduction code.
40.75 Status Reports
A. No later than the twelfth (12th) of each
month, the Employer will provide the Union
with a report in an electronic format of |
the following data, if maintained by the
Employer, for employees in the bargaining
unit:
1. Personnel number
2. Employee name
3. Mailing address
4. Personnel area code and title
5. Organization unit code, abbreviation and
title
6. Work county code and title
7. Work location street (if available)
8. Work location city (if available)
9. Work phone number

71a
10. Employee group
11. Job class code and title
12. Appointment date
13. Bargaining unit code and title
14. Position number
15. Pay scale group
16. Pay scale level
17. Employment percent
18. Seniority date
19. Separation date
20. Special pay code
21. Total salary from which union dues is
calculated
22. Deduction wage type
23. Deduction amount
24. Overtime eligibility designation
25. Retirement benefit plan
B. No later than the twelfth (12th) of each
month, the Employer will provide the Union
with a report in an electronic format of the
following data, if maintained by the
Employer, for employees who enter or leave
the bargaining unit or who stop or start
deductions:
1. Personnel number
2. Employee name
3. Mailing address

72a
4. Personnel area code and title
5. Organization unit code, abbreviation and
title
6. Work county code and title
7. Work location street (if available)
8. Work location city (if available)
9. Work phone number
10. Employee group
11. Job class code and title
12. Appointment date
13. Bargaining unit code and title
14. Position number
15. Pay scale group
16. Pay scale level
17. Employment percent
18. Seniority date
19. Separation date
20. Special pay code
21. Total salary from which union dues is
calculated
22. Action reason title and effective date
C. Information provided pursuant to this
Section will be maintained by the Union in
confidence according to the law.
D. The Union will indemnify the Employer for
any violations of employee privacy committed by the Union pursuant to this Section.

73a
40.56 Dues Cancellation Revocation
An employee may cancel revoke his or her
authorization for payroll deduction of fees
payments to the Union by written notice to the
Employer and the Union in accordance with the
terms and conditions of their signed membership card. Every effort will be made to make the
cancellationend the deduction effective on the
first payroll, and not later than the second
payroll, after receipt by the Employer of the
noticeconfirmation from the Union that the
terms of the employee’s signed membership
card regarding dues deduction revocation have
been met. However, the cancellation may cause
the employee to be terminated. subject to
Section 40.3. above.
40.87 Indemnification
The Employer shall be held harmless by the
Union and employees agrees to indemnify and
hold the Employer harmless from all claims,
demands, suits or other forms of liability that
arise against the Employer for or on account of
compliance with this Article and any and all
issues related to the deduction of dues and or
fees.
Dated July 6, 2018
For the Employer

For the Union

/s/ John Vencill
John Vencill,
Labor Negotiator

/s/ Amy Spiegel
Amy Spiegel,
Director of Negotiations

74a
APPENDIX G
Memorandum of Understanding
Between
The State of Washington
And the
Washington Federation of State Employees
The State of Washington and the Washington Federation of State Employees, AFSCME Council 28, agree
to modify Article 40, Sections 40.4 and 40.5 of the
2017-2019 Collective Bargaining Agreement as
follows:
40.4

The Employer agrees to deduct the membership dues, agency shop fee, non-association
fee, or representation fee from the salary of
employees who request such deduction in
writing within thirty (30) days of receipt of a
properly completed request submitted to the
appropriate agency payroll office. Such
requests will be made on a Union payroll
deduction authorization card. The Employer
will honor the terms and conditions of each
employee’s signed membership card.

40.5

Dues/Fees Cancellation
An employee may cancel his or her payroll
deduction of dues or fees by written notice
to the Employer and the Union. Every effort
will be made to make the cancellation
effective on the first payroll, and not later
than the second payroll, after receipt of the
notice. However, the cancellation may cause
the employee to be terminated, subject to
Section 40.3, above.

75a
The effective date of this MOU is the date it is signed
by both parties to this agreement, below.
/s/ [Illegible]

8/10/17

For the Employer Date

/s/ [Illegible]
For the Union

8/10/17
Date

76a
APPENDIX H
ARTICLE 40
DUES DEDUCTION/STATUS REPORTS
40.1 Union Dues
A. When an employee provides written authorization to the Employer, the Union has the right to
have deducted from the employee’s salary an
amount equal to the fees or dues required to
be a member of the Union. The Employer will
provide payments for all said deductions to the
Union at the Union’s official headquarters each
pay period.
B. Forty-five (45) calendar days prior to any
change in dues and/or fees, the Union will provide the Office of Financial Management/State
Human Resources, Labor Relations Section the
percentage and maximum dues and/or fees to be
deducted from the employee’s salary.
40.2 Notification to Employees
The Employer will inform new, transferred, promoted, or demoted employees in writing prior to
appointment into positions included in the bargaining unit(s) of the Union’s exclusive recognition and
the union security provision. The Employer will
furnish the employees appointed into bargaining
unit positions with a payroll deduction authorization form. The Employer will inform employees in
writing when they are appointed to a position that
is not in a bargaining unit.

77a
40.3 Union Security
All employees covered by this Agreement will, as a
condition of employment, either become members
of the Union and pay membership dues or, as nonmembers, pay a fee as described in Subsections
40.3 A, B, and C below, no later than the 30th day
following the effective date of this Agreement or the
beginning of their employment.
A. Employees who choose not to become union
members must pay to the Union, no later than
the 30th day following the beginning of employment, an agency shop fee equal to the amount
required to be a member in good standing of the
Union.
B. An employee who does not join the Union based
on bona fide religious tenets, or teachings of a
church or religious body of which he or she is a
member, will make payments to the Union that
are equal to its membership dues, less monthly
union insurance premiums, if any. These payments will be used for purposes within the program of the Union that are in harmony with the
employee’s conscience. Such employees will not
be members of the Union, but are entitled to all
of the representational rights of union members.
C. The Union will establish a procedure that any
employee who makes a request may pay a
representation fee equal to a pro rata share of
the full membership fee that is related to collective bargaining, contract administration and
the pursuit of matters affecting wages, hours
and other terms and conditions of employment
rather than the full membership fee.

78a
D. If an employee fails to meet the union security
provisions outlined above, the Union may notify
the Employer. If the Union notifies the Employer,
the Union will inform the employee that his or
her employment may be terminated.
40.4

The Employer agrees to deduct the membership
dues, agency shop fee, non- association fee, or
representation fee from the salary of employees
who request such deduction in writing within
thirty (30) days of receipt of a properly completed request submitted to the appropriate
agency payroll office. Such requests will be
made on a Union payroll deduction authorization card.

40.5 Dues/Fees Cancellation
An employee may cancel his or her payroll
deduction of dues or fees by written notice to the
Employer and the Union. Every effort will be made
to make the cancellation effective on the first payroll, and not later than the second payroll, after
receipt of the notice. However, the cancellation
may cause the employee to be terminated, subject
to Section 40.3, above.
40.6 Voluntary Deduction
A. PEOPLE
1. The Employer agrees to deduct from the
wages of any employee who is a member
of the Union deduction for the PEOPLE
program. Written authorizations must be
requested in writing by the employee and
may be revoked by the employee at any
time by giving written notice to both the
Employer and the Union. The Employer

79a
agrees to remit electronically, on each state
payday, any deductions made to the Union
together with an electronic report showing:
a. Employee name;
b. Personnel number;
c. Amount deducted; and
d. Deduction code.
* * *

80a

This page intentionally left blank.

85a
APPENDIX K
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT TACOMA
[Filed November 30, 2018]
————
No. 3:18-cv-5620
————
MELISSA BELGAU, et al.,
Plaintiffs,
v.
JAY R. INSLEE, et al.,
Defendants.
————
The Honorable Robert J. Bryan
————
STIPULATION REGARDING FACTS FOR
CROSS-MOTIONS FOR SUMMARY JUDGMENT
Plaintiffs Melissa Belgau, Donna Bybee, Michael
Stone, Richard Ostrander, Miriam Torres, Katherine
Newman, and Gary Honc (“Plaintiffs”), and Defendants
Governor Jay Inslee, David Schumacher, John
Wiesman, Cheryl Strange, Roger Millar, Joel Sacks
(“State Defendants”), and Washington Federation of
State Employees, AFSCME Council 28 (“WFSE”)
(together, “Defendants”), by and through their undersigned counsel of record, stipulate that, solely for
purposes of filing cross-motions for summary judgment or partial summary judgment in this case, the
following facts are true:

86a
1) Defendant Washington Federation of State
Employees, AFSCME Council 28 (“WFSE”) is a labor
organization that serves as the exclusive collective
bargaining representative for approximately 40,000
employees of the State of Washington in bargaining
units in general government agencies, institutions in
the state community college system, and state institutions of higher education. WFSE also represents a
small bargaining unit of employees of the Renton
Technical College.
2) WFSE has more than 35,000 dues paying
members.
3) Each Plaintiff is a Washington state employee
working in a General Government bargaining unit of
employees that is exclusively represented by WFSE
for purposes of collective bargaining with their
employer pursuant to Washington law.
4) A true copy of Article 40 of the general government collective bargaining agreement that applied to
employees in Plaintiffs’ bargaining unit, including
Plaintiffs, beginning July 1, 2017 (“Pre-Amended
2017-2019 CBA Art. 40”) is attached as Exhibit 1.
5) A true copy of the Memorandum of Understanding dated August 10, 2017 amending Article 40 of the
general government collective bargaining agreement
is attached as Exhibit 2.
6) A true copy of the Memorandum of Understanding dated July 6, 2018 further amending Article 40 of
the general government collective bargaining agreement (“Amended 2017 2019 CBA Art. 40”) is attached
as Exhibit 3.
7) Amended 2017-2019 CBA Art. 40 currently
applies to the approximately 26,800 Washington State

87a
employees in general government agencies in the General Government bargaining units, including Plaintiffs, who are represented by WFSE.
8) Employees represented by WFSE are not
required to become WFSE members as a condition of
employment. WFSE members are also not required to
remain WFSE members, and they may resign from
membership at any time.
9) Plaintiffs signed the cards attached as Exhibits
4 through 17 (the “cards”). Each of these cards was
signed on the date indicated on the card by the Plaintiff whose name appears on the card. Exhibits 4
through 10 are referred to herein as Plaintiffs’ “initial
cards.” Exhibits 11 through 17 are referred to herein
as Plaintiffs’ “current cards.”
10) WFSE drafted the cards that are Exhibits 4
through 17. WFSE asked the Plaintiffs to sign the
cards. Defendants did not advise Plaintiffs to seek
legal counsel before signing the cards. Defendants did
not prevent Plaintiffs from consulting with legal counsel before signing the cards. Plaintiffs did not seek
legal counsel before signing the cards.
11) Plaintiffs became WFSE members when they
signed their initial cards (Exhibits 4 through 10).
Other workers became WFSE members when they
signed cards similar to Plaintiffs’ cards (Exhibits 4
through 17).
12) In approximately July 2017, WFSE began asking current members if they would sign new cards
materially identical to Plaintiffs’ current cards (Exhibits 11 through 17). WFSE began asking members if
they would sign these new cards after a deliberative
process by WFSE’s democratically elected Executive
Board, which formally approved the new cards in a

88a
meeting open to WFSE’s members. Approximately
16,570 employees have signed these cards to date. The
other WFSE members are still covered by cards similar to Plaintiffs’ initial cards (Exhibits 4 through 10).
WFSE did not require members to sign new cards to
remain WFSE members.
13) At the time Plaintiffs signed their current
cards (Exhibits 11 through 17), they worked in bargaining units covered by Pre-Amended 2017-2019
CBA Art. 40, as amended by the August 10, 2017
Memorandum of Understanding. At the time the
Plaintiffs signed their initial cards (Exhibits 4 through
10), they worked in bargaining units covered by PreAmended 2017-2019 CBA Art. 40, or similar provisions in previous collective bargaining agreements.
14) At the time Plaintiffs signed the cards (Exhibits 4 through 17), the State Defendants deducted
union dues from the wages of union members, including Plaintiffs, and remitted those dues to WFSE, and
the State Defendants deducted representation fees
from nonmembers as a condition of employment and
remitted those fees to WFSE, pursuant to the collective bargaining agreements and the version of RCW
41.80.100 then in effect. Defendants stopped enforcing
the representation fee requirement after the Supreme
Court issued Janus v. AFSCME Council 31, 138 S. Ct.
2448 (2018) on June 27, 2018.
15) At the time Plaintiffs signed the cards that are
Exhibits 4 through 17, the representation fee applicable to non-members ranged from approximately 65.3%
to 78.8% of union dues paid by union members.
16) At the time Plaintiffs signed the cards that are
Exhibits 4 through 17, union dues were between

89a
approximately 1.37% and 1.5% of union members’ base
wages.
17) By signing cards like the cards the Plaintiffs
signed (Exhibits 4 through 17), workers become union
members and obtain membership rights. Membership
rights include the ability to vote on whether to ratify a
collective bargaining agreement, vote in union officer
elections, run for union office, have the opportunity to
serve on bargaining committees, and participate in the
union’s internal affairs.
18) WFSE members also receive access to members-only benefits, including discounts on goods and
services, including home mortgages and wireless
phone plans, access to scholarship programs, free legal
advice, discounted dental benefits, annual family campouts, access to the Union Sportsman’s Alliance, and
access to the AFSCME Free College program. WFSE
also uses membership dues to contribute to the Foundation for Working Families, which provides disaster/hardship relief grants to union members.
19) Only WFSE members receive membership
rights and access to members-only benefits.
20) After June 27, 2018, Plaintiffs each communicated in writing to WFSE that they object to union
membership and the payment of any union dues or
fees. Plaintiffs Belgau, Stone, Newman, and Honc also
communicated their objections to their agency
employers.
21) WFSE has processed Plaintiffs’ membership
resignations. Plaintiffs are no longer union members
and no longer have membership rights or access to
members-only benefits.

90a
22) The State Defendants continued to deduct an
amount equal to union dues paid by members from
Plaintiffs’ wages and remitted them to WFSE, pursuant to the Plaintiffs’ current cards (Exhibits 11
through 17), Amended 2017-2019 CBA Art. 40, and
RCW 41.80.100.
23) The State Defendants will continue to deduct
an amount equal to union dues from Plaintiffs’ wages
and remit those funds to WFSE until the expiration of
the one-year terms described in the Plaintiffs’ current
cards (Exhibits 11 through 17), i.e., one year after each
Plaintiff signed his or her current card, without
requiring Plaintiffs to again object to the deductions.
For Plaintiffs Belgau, Bybee, and Ostrander, those
one-year terms expired in November 2018, and the
State Defendants stopped deducting an amount equal
to union dues from the wages of those Plaintiffs.
24) After Plaintiffs filed this lawsuit, WFSE
agreed to deposit the amounts deducted from Plaintiffs’ wages in a separate, interest-bearing account
pending resolution of this action. WFSE has opened
the separate account and will keep all amounts
received from each Plaintiff after the date of each
Plaintiff’s resignation of union membership and objection to dues or fee payments in the account until this
lawsuit is resolved, so the funds will not be used to pay
for any union activities or otherwise subsidize union
operations.
25) Apart from the facts set forth in this stipulation, the parties do not contend that additional facts
exist now that make the Plaintiffs’ current cards
enforceable or unenforceable.
26) The parties agree that they will file crossmotions for summary judgment or partial summary

91a
judgment based on the facts set forth in this stipulation and will not introduce additional evidence related
to the merits of Plaintiffs’ claims in support of or opposition to those cross-motions. The parties agree that
this stipulation does not preclude the parties from presenting additional facts or evidence if the case is not
fully resolved based on those cross-motions for summary judgment or partial summary judgment or from
raising at any time any issues that go to the court’s
subject matter jurisdiction.
DATED this 30th day of November, 2018.
So stipulated,
/s/ James G. Abernathy
James G. Abernathy, WSBA #48801
c/o Freedom Foundation
P.O. Box 552
Olympia, WA 98507
Telephone: (360) 956-3482
JAbernathy@myfreedomfoundation.com
Attorney for Plaintiffs
ROBERT W. FERGUSON,
ATTORNEY GENERAL
/s/ Alicia O. Young
Alicia O. Young, WSBA #3
5553 Kelly M. Woodward, WSBA #46075
Assistant Attorneys General
Office of the Attorney General
PO Box 40111
Olympia, WA 98504-0111
(360) 709-6470
AliciaO@atg.wa.gov
KellyW2@atg.wa.gov

92a
Attorneys for State Defendants
Jay Inslee, David Schumacher, John
Wiesman, Cheryl Strange, Roger Millar,
and Joel Sacks
Edward Earl Younglove III, WSBA #5873
YOUNGLOVE & COKER, P.L.L.C.
Attorneys At Law
Westhills II Office Park
1800 Cooper Point Rd Sw, Bldg 16
PO Box 7846
Olympia, Washington 98507-7846
(360) 357-7791
edy@ylclaw.com
/s/ Scott A. Kronland
Scott A. Kronland, Pro Hac Vice
P. Casey Pitts, Pro Hac Vice
Matthew J. Murray, Pro Hac Vice
Kristin M. García, Pro Hac Vice
ALTSHULER BERZON LLP
177 Post Street, Suite 300
San Francisco, CA 94108
(415) 421-7151
skronland@altshulerberzon.com
cpitts@altshulerberzon.com
mmurray@altshulerberzon.com
kgarcia@altshulerberzon.com
Attorneys for Defendant Washington
Federation of State Employees, AFSCME
Council 28

93a
CERTIFICATE OF SERVICE
I hereby certify that on this 30th day of November,
2018, I electronically filed this STIPULATION
REGARDING FACTS FOR CROSS-MOTIONS FOR
SUMMARY JUDGMENT with the Clerk of the Court
using the CM/ECF system, which will send notification of such filing to counsel for all parties.
DATED this 30th day of November, 2018, at San
Francisco, California.
By: /s/ Scott A. Kronland
Scott A. Kronland, Pro Hac Vice
ALTSHULER BERZON LLP
177 Post Street, Suite 300
San Francisco, CA 94108
(415) 421-7151
skronland@altshulerberzon.com

94a
APPENDIX L
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT TACOMA
[Filed August 23, 2018]
————
Case No. 3:18-cv-5620
————
MELISSA BELGAU, DONNA BYBEE, MICHAEL STONE,
RICHARD OSTRANDER, MIRIAM TORRES, KATHERINE
NEWMAN, GARY HONC, individuals,
v.

Plaintiffs,

JAY INSLEE, in His Official Capacity as Governor
of the State of Washington; DAVID SCHUMACHER, in
His Official Capacity as Director of the Washington
Office of Financial Management; JOHN WEISMAN, in
His Official Capacity as Director of the Washington
Department of Health; CHERYL STRANGE, in Her
Official Capacity as Director of the Washington
Department of Social and Health Services;
ROGER MILLAR, in His Official Capacity as Director of
the Washington Department of Transportation;
JOEL SACKS, in His Official Capacity as Dir. of
Washington Department of Labor and Industries;
WASHINGTON FEDERATION OF STATE EMPLOYEES
(AFSCME, COUNCIL 28), a labor corporation,
Defendants.
————
AMENDED COMPLAINT FOR INJUNCTIVE
RELIEF, DECLARATORY JUDGMENT, AND
DAMAGES – CLASS ACTION
————

95a
INTRODUCTION
1. This class action case concerns whether union
dues/fees deductions from State employees’ wages
since Janus v. AFSCME, Council 31, 138 S. Ct. 2448 (
2018) are legal if the State employees have not clearly
and affirmatively consented to the deductions by waiving their constitutional right to not fund union political advocacy (“union advocacy”).
2. Plaintiffs Melissa Belgau, Michael Stone, Richard
Ostrander, Miriam Torres, Katherine Newman, Donna
Bybee, Gary Honc, and class members are Washington
State employees from whose wages the State continues to deduct union dues/fees after the U.S. Supreme
Court issued Janus v. AFSCME, Council 31, on June
27, 2018, despite the fact that Plaintiffs have not
clearly and affirmatively consented to the deductions
by waiving the constitutional right to not fund union
advocacy. The State remits those deductions to the
Washington Federation of State Employees (“WFSE”).
3. The State of Washington and WFSE (“Defendants”) claim the continued deductions are proper. They
do so based on Plaintiffs’ and class members’ signatures on dues deduction agreements which allegedly
authorize and bind Plaintiffs to continued deductions
for a set period of time despite the fact that Plaintiffs’
and class members’ signed those agreements at a time
when the relevant collective bargaining agreement
included a compulsory agency fee provision, and the
right to not fund union advocacy was not recognized
by the U.S. Supreme Court in Janus v. AFSCME,
Council 31, on June 27, 2019.

96a
4. RCW 41.80.100 and Amended 2017-2019 CBA
Art. 40.2, 40.3, and 40.61 authorize and compel the
State to deduct union dues/fees (“dues”) from Plaintiffs’ and class members’ wages and forward them to
WFSE despite the fact that Plaintiffs have not clearly
and affirmatively consented to the deductions by waiving the constitutional right to not fund union advocacy. The statute and CBA provisions and Defendants’
actions taken pursuant to them, therefore, impermissibly infringe on Plaintiffs’ and class members’ First
Amendment rights of free speech and free association.
5. This is a civil rights class action pursuant to 42
U.S.C. § 1983, seeking declaratory judgment, injunctive relief, as well as nominal, compensatory, and
punitive damages and restitution of union dues illegally seized from Plaintiffs and the class members
they seek to represent. Defendants are state actors
acting under the color of state law—specifically RCW
41.80.100 and the Amended 2017-2019 CBA Art. 40.2,
40.3, and 40.6.
II. JURISDICTION AND VENUE
6. This Court has jurisdiction over this case pursuant to 28 U.S.C. § 1331, because it arises under the
First and Fourteenth Amendments to the U.S. Constitution and 42 U.S.C § 1983. This Court has authority
under 28 U.S.C. §§ 2201 and 2202 to grant declaratory
relief and other relief, including preliminary and permanent injunctive relief, pursuant to Rule 65 of the
Federal Rules of Civil Pocedure.

1

Available at https://ofm.wa.gov/sites/default/files/public/leg
acy/labor/agreements/17-19/wfse_gg.pdf (last visited August 23,
2018).

97a
7. Under 28 U.S.C. § 1367 this Court has supplemental jurisdiction over claims stated in this Complaint that do not arise under federal law but are so
related to the federal claims as to form part of the
same case or controversy.
8. Venue is proper in this Court pursuant to 28
U.S.C. § 1391 and intra-district assignment to the
Tacoma Division is proper because the claims arise in
this judicial district and division and Defendants do
business and operate in this judicial district and
division.
III. PARTIES
9. Plaintiff Melissa Belgau works for the State
of Washington in the Department of Health as a
Washington Emergency Medical Services Information
System Administrator. Michael Stone works for the
State of Washington in the Department of Social and
Health Services as a Support Enforcement Officer.
Richard Ostrander works for the State of Washington
in the Department of Transportation as a Maintenance Technician. Miriam Torres is a Workfirst
Program Specialist at the Washington State Department of Social and Health Services. Katherine
Newman works for the State of Washington at the
Health Care Authority as an Information Technology
Specialist. Donna Bybee works for the State of
Washington in the Department of Health as a Trauma
Registry Administrator. Gary Honc works for the
Washington Department of Labor and Industries as
an Insurance Underwriter. Plaintiffs Belgau, Stone,
Ostrander, Torres, Newman, Bybee, and Honc signed
dues deduction agreements before June 27, 2018.
Named Plaintiffs and class members are Washington
State employees whose exclusive representative is
WFSE. The state of Washington has deducted union

98a
dues from Plaintiffs and class members since Janus v.
AFSCME, Council 31 issued on June 27, 2018 despite
the fact that Plaintiffs and class members have not
clearly and affirmatively consented to the deductions
by waiving the constitutional right to not fund union
advocacy.
10. Defendant Jay Inslee is Governor of Washington
and is sued in his official capacity. As Governor,
Defendant Inslee is Washington’s chief executive
officer and represents the State in collective
bargaining with WFSE. See RCW 41.80.101(1).
11. Defendant David Schumacher is Director of
the Washington State Office of Financial Management
(“OFM”), the agency designated by the governor to
collectively bargain with WFSE, and is sued in his
official capacity. Defendant David Schumacher by and
through OFM is charged with the responsibility of
overseeing OFM, which is responsible for administering Plaintiffs’ and class members’ wages, as well as
deducting from those wages union dues/fees and
remitting them to WFSE pursuant to RCW 41.80.100
and Amended 2017-2019 CBA Art. 40.2, 40.3, and
40.6.
12. Defendant John Weisman is the Director of the
Washington State Department of Health and is sued
in his official capacity.
13. Defendant Cheryl Strange is the Director of
the Washington State Department of Social and
Health Services and is sued in her official capacity.
14. Roger Millar is Director of the Washington
State Department of Transportation and is sued in his
official capacity. Joel Sacks is Director of the
Washington State Department of Labor and
Industries and is sued in his official capacity.

99a
15. Defendant Washington Federation of State
Employees, American Federation of State, County,
Municipal, Employees, Council 28 (“WFSE”) is a labor
union that represents over 35,000 public employees in
Washington, and is headquartered at 1212 Jefferson
Street, Suite 300, Olympia, WA 98501. WFSE is the
State-recognized exclusive representative of Plaintiffs
and class members. WFSE represents Plaintiffs and
other Washington State employees throughout 36
State agencies, and the CBA applicable to Plaintiffs
also applies to those Washington State employees and
agencies.
IV. STATEMENT OF FACTS
16. Plaintiffs and class members are Washington
State employees exclusively represented by WFSE and
are subject to a single collective bargaining agreement
applicable to Washington State employees in bargaining units represented by WFSE. WFSE represents
Washington State employees in bargaining units in 36
different Washington State agencies.
17. At all times during their employment prior to
July 6, 2018, Defendants subjected Plaintiffs and class
members to CBA provisions which required the
deduction of union dues or dues equivalent fees from
their wages as a condition of employment. See Preamended 2017-19 CBA art. 40.
18. Employees who objected to union membership
and the payment of any union dues/fees were still
required to pay a “representation fee equal to the pro
rata share of the full membership fee that is related to
collective bargaining...”, i.e., an agency fee the amount
of which WFSE determined. Pre-amended 2017-19
CBA art. 40.3(C).

100a
19. RCW 41.80.100 required Plaintiffs and class
members to pay at least an agency fee to WFSE as a
condition of employment. Before June 27, 2018, absent
at least this minimum payment, Plaintiffs’ and class
members’ employment would be terminated. Preamended CBA art. 40.3(D), 40.5. According to WFSE’s
2017 accounting, the agency fee assessed to objecting
nonunion employees was 77.8% of full union dues.
20. On June 27, 2018, the U.S. Supreme Court in
Janus v. AFSCME, Council 31, held that “[n]either an
agency fee nor any other payment to the union may be
deducted from a nonmember’s wages, nor may any
other attempt be made to collect such a payment,
unless the employee affirmatively consents to pay.”
138 S. Ct. at 2486. The Supreme Court also held that
agreeing to make any payments to a union constitutes
a waiver of a constitutional right and that “such a
waiver cannot be presumed” and “must be freely given
and shown by clear and convincing evidence.” Id.
21. On July 6, 2018, the State and WFSE executed
an Amended CBA with a Memorandum of Understanding (“MOU”) which removed the CBA’s compulsory agency fee provision but still required the continued deduction of full union dues from the wages of
Plaintiffs and class members.
22. Since June 27, 2018, Plaintiffs have communicated in writing to the State and WFSE that they
object to union membership and the payment of any
union dues/fees.
23. Despite the Supreme Court’s ruling in Janus v.
AFSCME, Council 31 and Plaintiffs’ objections, the
State continues to deduct union dues/fees from
Plaintiffs’ wages and remit them to WFSE pursuant to
RCW 41.80.100 and the MOU.

101a
24. WFSE has informed Plaintiffs that it has
instructed the State to continue deducting union
dues/fees from Plaintiffs’ wages.
25. Plaintiffs’ State employers have indicated to
Plaintiffs that it will continue to deduct union
dues/fees from Plaintiffs’ wages pursuant to WFSE’s
wishes and, in fact, have continued to do so.
26. Moreover, it is the official opinion of the
Washington Attorney General that Plaintiffs’ dues
deduction agreements are not impacted by Janus v.
AFSCME, Council 31, because he alleges Plaintiffs
dues deduction agreements, signed before Janus, are
“agreements between a union and its members to pay
union dues.” The Washington Attorney General states,
The Janus decision does not impact any
agreements between a union and its members
to pay union dues, and existing membership
cards or other agreements by union members
to pay dues should continue to be honored.
The opinion only impacts the payment of an
agency service fee by individuals who decline
union membership.2
27. Plaintiffs’ Washington State employers take
the same position as the Washington Attorney
General, as do all of Washington’s State employers
(Washington State agencies).
28. Defendants contend the continued dues/fee
deductions are lawful because of dues deduction
agreements signed by Plaintiffs before June 27, 2018
which purport to authorize union dues deductions
2

Available at https://www.atg.wa.gov/news/news-releases/att
orney-general-ferguson-issues-advisory-affirming-labor-rights-andobligations (last visited August 1, 2018).

102a
from Plaintiffs’ wages. The agreement stated,
“Effective immediately, I hereby voluntarily authorize
and direct my Employer to deduct from my pay each
pay period, the amount of dues as set in accordance
with the WFSE Constitution and By-Laws and
authorize my Employer to remit such amounts semimonthly to the Union (currently 1.5% of my salary per
pay period not to exceed the maximum).”
29. The dues deduction cards purport to authorize
the State to deduct union dues from Plaintiffs’ wages
and remit them to WFSE. The cards state that
authorization for the deductions will automatically
renew annually unless the employee revokes the
authorization between 10 and 20 days prior to the
anniversary of the day Plaintiffs’ signed the authorization. WFSE claims each plaintiff signed an identical
card.
30. WFSE will require Plaintiffs to continue
paying union dues/fees until Plaintiffs object again
within the aforementioned limited ten day period. In
the meantime, WFSE is preventing Plaintiffs from
cancelling union membership and the deduction of
union dues/fees from Plaintiffs’ wages.
31. Amended CBA art. 40.2 requires State Defendants to “honor the terms and conditions of each
employee’s sign membership card.” Amended CBA art.
40.2.
32. Amended CBA art. 40.6 only allows employees
to revoke the card’s purported authorization for a
payroll deduction “in accordance with the terms and
conditions of their signed membership card.”
33. Plaintiffs signed the dues deduction cards at a
time when the CBA included a compulsory agency fee
provision, and the right to not fund union advocacy

103a
was not recognized by the U.S. Supreme Court in
Janus v. AFSCME, Council 31 on June 27, 2019.
34. At the time Plaintiffs signed the cards, they
had not previously clearly and affirmatively consented
to the payment of union dues/fees by waiving their
constitutional right to not fund union advocacy.
35. The dues deduction cards contain no language
indicating that a First Amendment right was being, or
potentially being, waived.
36. The dues deduction cards contain no language
indicating that they operated as a waiver, or potential
waiver, of a First Amendment right.
37. Plaintiffs and class members are paid on the
10th and the 25th day of each month. Absent injunctive relief, the State will continue deducting union
dues/fees from Plaintiffs’ and class members’ wages on
this schedule.
38. WFSE drafted the dues deduction agreements,
WFSE proposed the agreements as take-it-or-leave-it
form contracts, Plaintiffs could not bargain over the
terms of the dues deduction authorizations, and
Plaintiffs did not seek counsel and were not advised to
seek counsel. Plaintiffs were not made aware, either
by the language of the agreements or by WFSE or
State representatives, of their constitutional right to
not fund union advocacy or the significance of the
agreement as a waiver of this right.
39. Plaintiffs cannot post a substantial bond to
cover the amount of union dues that would be
deducted from employees’ wages through the duration
of preliminary injunctive relief.
40. RCW 41.80.100 and Amended 2017-2019 CBA
Art. 40.2, 40.3, and 40.6 authorize and compel the

104a
State to deduct union dues/fees from Plaintiffs’ and
class members’ wages and forward them to WFSE
despite the fact that Plaintiffs have not clearly and
affirmatively consented to the deductions by waiving
the constitutional right to not fund union advocacy.
The statute and CBA provisions and Defendants’
actions taken pursuant to them, therefore, impermissibly infringe Plaintiffs’ and class members’ First
Amendment rights of free speech and free association,
as secured against state infringement by the
Fourteenth Amendment to the U.S. Constitution.
V. CLASS ALLEGATIONS
41. Plaintiffs bring this case as a class action
pursuant to Federal Rules of Civil Procedure
23(b)(1)(A) and (b)(2), and, alternatively, 23(b)(3), for
themselves and for all others similarly situated, and
any subclasses deemed appropriate by this Court. The
class consists of all individuals: 1) who are Washington
State employees exclusively represented by WFSE as
described in paragraph 9 above; 2) who have objected
to union membership and the payment of any union
dues or fees; 3) from whom the State continues to
deduct union dues/fees on behalf of WFSE based on
agreements signed at the time class members were
subjected to an agency fee provision, and before the
U.S. Supreme Court issued Janus v. AFSCME,
Council 31 on June 27, 2018; and 4) who have not
clearly and affirmatively consented to dues/fees
deductions by waiving the constitutional right to not
fund union political advocacy. The class includes
everyone who comes within the class definition at any
time from three years prior to the commencement of
this action until the conclusion of this action.
42. Upon information and belief, there are hundreds, and likely thousands, of class members. Their

105a
number is so numerous and in varying locations and
jurisdictions across Washington that joinder is
impractical.
43. There are questions of law and fact common to
all class members, including Plaintiffs. Factually, the
State of Washington has continued to deduct union
dues/fees from all class members who have objected to
union membership and the payment of any union dues
or fees, and each Plaintiff and class member signed a
dues deduction agreement at a time when the relevant
collective bargaining agreement included a compulsory agency fee provision, and the right to not fund
union advocacy was yet to be recognized by the U.S.
Supreme Court in Janus v. AFSCME, Council 31 on
June 27, 2019. The State of Washington continues to
deduct union dues/fees from Plaintiffs’ and class members’ wages. The question of law is the same for all
class members: Do these deductions violate Plaintiffs’
and class members’ First Amendment rights?
44. Plaintiffs’ claims and defenses are typical of
other members of the class because the State is seizing
union dues/fees from class members who have objected
to union membership and the payment of union
dues/fees, even though they have not clearly and
affirmatively consented to the deductions by waiving
the constitutional right to not fund union advocacy
because they signed dues deduction agreements at a
time when the relevant collective bargaining agreement included a compulsory agency fee provision, and
the right to not fund union advocacy was yet to be recognized by the U.S. Supreme Court in Janus v.
AFSCME, Council 31 on June 27, 2018. The State and
SEIU have an identical duty to Plaintiffs and all other
class members regarding these claims.

106a
45. Plaintiffs can fairly and adequately represent
the interests of the class and have no conflict with
other, similarly situated class members. Plaintiffs also
have no interest antagonistic to others who have been
subjected by the State and WFSE to the aforementioned union dues/fee deductions.
46. Defendants’ duty to cease the aforementioned
union dues/fee deductions and pay back all monies
deducted since the objection to union membership and
the payment of any union due/fees, applies equally to
all in the respective class, and the prosecution of separate actions by individual class members would create a risk of inconsistent or varying adjudications
which would establish incompatible standards of conduct for Defendants.
47. Defendants have acted to deprive Plaintiffs
and each member of the class of their constitutional
rights on grounds generally applicable to all, thereby
making appropriate declaratory, injunctive, and other
equitable relief with regard to the class as a whole.
48. The Plaintiffs and class are represented by the
undersigned counsel pro bono. Counsel is employed by
a long-established charitable organization experienced in furnishing representation to unionized public
and partial-public employees whose constitutional
rights have been violated.
49. A class action can be maintained under Rule
23(b)(3) because questions of law or fact common to the
members of the class predominate over any questions
affecting only individual members, in that the
important and controlling questions of law and fact
are common to all members of the class, i.e., whether
the aforementioned dues deductions violate their First
Amendment rights and whether certain dues deduc-

107a
tion agreements constitute a valid waiver of a constitutional right if they are signed when the relevant collective bargaining agreement included a compulsory
agency fee provision and before the right to not fund
union advocacy was recognized by the U.S. Supreme
Court in Janus v. AFSCME, Council 31 on June 27,
2019. A class action is superior to other available
methods for the fair and efficient adjudication of the
controversy, in as much as the individual class members are deprived of the same rights by Defendants’
actions, differing only in the amount of money
deducted which is, for legal purposes, immaterial. This
fact is known to the Defendants and easily calculated
from Defendants’ business records. The limited
amount of money involved in the case of each individual’s claim (union dues/fee deductions since each class
member objected to union membership and the payment of any union dues/fees or, alternatively, union
due/fee deductions since each class member began
employment) would make it burdensome for the class
members to maintain separate actions.
50. A class action can be maintained under Rule
23(b)(1)(A) because separate actions by class members
could risk inconsistent adjudications on the underlying legal issues.
51. A class action can be maintained under Rule
23(b)(1)(B) because an adjudication determining the
constitutionality of union dues/fees deductions in the
aforementioned circumstances, as a practical matter,
will be dispositive of the interests of all class members.
52. The illegal actions taken by Defendants were
taken pursuant to the same statutes and collective
bargaining agreements, and constitute a concerted
scheme resulting in the violation of Plaintiffs’ and
class members’ rights. Additionally, the affiliation

108a
among the Defendants presents an organizational
structure which makes it expedient for the named
Plaintiffs and members of the of the class to proceed
against all named Defendants.
VI. CLAIMS FOR RELIEF
CLAIM 1
First Amendment, through 42 U.S.C. § 1983
Deducting union dues/fees from Plaintiffs’ wages
pursuant to RCW 41.80.100 violates the First
Amendment to the United States Constitution.
53. Plaintiffs incorporate by reference and reallege herein all Paragraphs above.
54. RCW 41.80.100, on its face and as applied, violates the Plaintiffs’ First Amendment rights, as
secured against state infringement by the Fourteenth
Amendment and 42 U.S.C. § 1983, to not associate
with a mandatory representative, and to not support,
financially or otherwise, petitioning and speech, and
against compelled speech, because it authorizes and
compels the State to deduct union dues/fees from
Plaintiffs’ and class members’ wages even though they
have not clearly and affirmatively consented to the
deductions by waiving their constitutional right to not
fund union advocacy; and because it forces Plaintiffs
and class members to maintain union membership
over their objection.
55. Consent to fund union advocacy cannot be presumed and neither Plaintiffs nor class members
waived their constitutional right to not fund union
advocacy.
56. No compelling state interest justifies this
infringement on Plaintiffs’ First Amendment rights.

109a
57. RCW 41.80.100 is significantly broader than
necessary to serve any possible alleged government
interest.
58. RCW 41.80.100 is not carefully or narrowly tailored to minimize the infringement of free speech
rights.
CLAIM 2
First Amendment, through 42 U.S.C. § 1983
Amended 2017-2019 CBA Art. 40.2, 40.3, and 40.6
and other cited provisions of the CBA and the
deductions of untion dues/fees from Plaintiffs’ and
class members’ wages pursuant thereto violate the
First Amendment to the United States Constitution.
59. Plaintiffs incorporate by reference and reallege herein all Paragraphs above.
60. Amended 2017-2019 CBA Art. 40.2, 40.3, and
40.6 and other cited provisions of the CBA and any
action thereto, on their face and as applied, violate
Plaintiffs’ First Amendment rights, as secured against
state infringement by the Fourteenth Amendment and
42 U.S.C. § 1983, to not associate with a mandatory
representative, and to not support, financially or otherwise, petitioning and speech, and against compelled
speech, because they compel the State to deduct union
dues/fees from Plaintiffs’ and class members’ wages
and remit them to WFSE even though they have not
clearly and affirmatively consented to the deductions
by waiving their constitutional right to not fund union
advocacy; and because they force Plaintiffs and class
members to maintain union membership over their
objection.
61. Consent to fund union advocacy cannot be presumed and neither Plaintiffs nor class members

110a
waived their constitutional right to not fund union
advocacy.
62. No compelling state interest justifies this
infringement on Plaintiffs’ First Amendment rights.
63. Amended 2017-2019 CBA Art. 40.2, 40.3, and
40.6 are significantly broader than necessary to serve
any possible alleged government interest.
64. Amended 2017-2019 CBA Art. 40.2, 40.3, and
40.6 are not carefully or narrowly tailored to minimize
the infringement of free speech rights.
CLAIM 3
First Amendment, through 42 U.S.C. § 1983
Deducting union dues/ fees from Plaintiffs’ and class
members’ wages violates Plaintiffs’ freedom of
association.
65. Plaintiffs incorporate by reference and reallege herein all Paragraphs above.
66. RCW 41.80.100, Amended 2017-2019 CBA Art.
40.2, 40.3, and/or 40.6, other cited provisions of the
CBA, and Defendants’ actions pursuant thereto violate Plaintiffs’ and class members’ First Amendment
right to the freedom of association, as secured against
state infringement by the Fourteenth Amendment and
42 U.S.C. § 1983.
67. Consent to fund union advocacy cannot be presumed and neither Plaintiffs nor class members
waived their constitutional right to not fund union
advocacy.
68. No compelling state interest justifies this
infringement on Plaintiffs’ and class members’ First
Amendment right to freedom of association.

111a
69. RCW 41.80.100, Amended 2017-2019 CBA Art.
40.2, 40.3, and/or 40.6 are significantly broader than
necessary to serve any possible alleged government
interest.
70. RCW 41.80.100, Amended 2017-2019 CBA Art.
40.2, 40.3, and/or 40.6 are not carefully or narrowly
tailored to minimize the infringement of free speech
rights
CLAIM 4
First Amendment, through 42 U.S.C. § 1983
Defendants have illegally conspired to knowingly
deprive Plaintiffs and class members
of their constitutional rights.
71. Plaintiffs incorporate by reference and reallege herein all Paragraphs above.
72. Defendants conspired to deprive Plaintiffs and
class members of their First Amendment rights by
unlawfully deducting union dues/fees from Plaintiffs’
and class members’ wages. There was an agreement to
do so and a meeting of the minds to pursue this objective and Defendants took several overt acts, described
above, to accomplish this objective.
73. By deducting union/dues fees from Plaintiffs’
and class members’ wages in the manner described
herein, Defendants acted with malice and showed a
reckless and outrageous indifference to a highly
unreasonable risk of harm and acted with a conscious
indifference to the rights and welfare of others, including Plaintiffs.

112a
CLAIM 5
Unjust Enrichment
Defendants’ scheme unjustly enriched
Defendant WFSE.
74. Plaintiffs incorporate by reference and reallege herein all Paragraphs above.
75. WFSE received a benefit in the form of 1.5% of
Plaintiffs’ and class members’ wages pursuant to the
dues exaction scheme imposed by Defendants on
Plaintiffs.
76. WFSE benefited at Plaintiffs’ and class members’ expense because State Defendants deducted
1.5% of their wages and remitted the money to WFSE,
and WFSE knew it benefited from receiving Plaintiffs’
and class members’ money.
77. The circumstances of Defendants’ scheme
make it unjust for WFSE to retain the benefit.
CLAIM 6
First Amendment, through 42 U.S.C. § 1983
Deducting union dues/fees from Plaintiffs’ pursuant
to RCW 41.80.100 and the Pre-amended
CBA art. 40 violated the First Amendment to the
United States Constitution.
78. Plaintiffs incorporate by reference and reallege herein Paragraphs above.
79. RCW 41.80.100 and Pre-amended 2017-2019
CBA Art. 40, as well as the 2015-2017 CBA Art. 40 and
other cited provisions of the CBAs and any action
thereto, on their face and as applied, violate Plaintiffs’
First Amendment rights, as secured against state
infringement by the Fourteenth Amendment and 42
U.S.C. § 1983, to not associate with a mandatory representative, and to not support, financially or other-

113a
wise, petitioning and speech, and against compelled
speech, because they compelled the State to deduct
union dues/fees from Plaintiffs’ and class members’
wages and remit them to WFSE even though they had
not clearly and affirmatively consented to the deductions by waiving their constitutional right to not fund
union advocacy; and because they forced Plaintiffs and
class members to maintain union membership over
their objection.
80. Consent to fund union advocacy cannot be presumed and neither Plaintiffs nor class members
waived their constitutional right to not fund union
advocacy.
81. No compelling state interest justifies this
infringement on Plaintiffs’ First Amendment rights.
82. RCW 41.80.100 and Pre-amended 2017-2019
CBA Art. 40, as well as the 2015 2017 CBA Art. 40 are
significantly broader than necessary to serve any possible alleged government interest.
83. RCW 41.80.100 and Pre-amended 2017-2019
CBA Art. 40, as well as the 2015 2017 CBA Art. 40 are
not carefully or narrowly tailored to minimize the
infringement of free speech rights.
VI. PRAYER FOR RELIEF
84. Plaintiffs incorporate by reference and reallege herein all Paragraphs above.
85.
Plaintiffs and class members have been
injured as a result of Defendants’ conduct as described
above by deducting union dues/fees even though Plaintiffs and class members have not clearly and affirmatively consented to the deductions by waiving the constitutional right to not fund union advocacy. Accordingly, Plaintiffs pray for the following relief:

114a
86. Declaratory Judgment: enter a Declaratory
Judgment that RCW 41.80.100, Amended 2017-2019
CBA Art. 40.2, 40.3, and 40.6, and other cited provisions of the CBA on their face and as applied violates
the First Amendment to the United States Constitution, as secured against state infringement by the
Fourteenth Amendment to the United States Constitution and 42 U.S.C. § 1983, because they permit and
compel the State to deduct union dues/fees from Plaintiffs’ and class members’ wages even though they have
not clearly and affirmatively consented to the deductions by waiving the constitutional right to not fund
union advocacy, and/or because it forces Plaintiffs and
class members to maintain union membership over
their objection, and are unconstitutional and of no
effect;
87. Declaratory Judgment: enter a Declaratory
Judgment that the Washington AG’s policy related to
the application of Janus v. AFSCME, Council 31, to
WFSE-represented State employees, cited herein, is
unconstitutional and of no effect;
88. Declaratory Judgment: enter a Declaratory
Judgment that Defendants conspired to deprive Plaintiffs and class members of their First Amendment
rights by deducting union dues/fees from their wages
even though they have not clearly and affirmatively
consented to the deductions by waiving the constitutional right to not fund union advocacy, and/or because
by forcing Plaintiffs and class members to maintain
union membership over their objection;
89. Declaratory Judgment: enter a Declaratory
Judgment that Defendants’ deduction of monies from
Plaintiffs’ and class members’ wages even though they
have not clearly and affirmatively consented to the
deductions by waiving the constitutional right to not

115a
fund union advocacy has been illegal and unconstitutional;
90. Declaratory Judgment: enter a Declaratory
Judgment that RCW 41.80.100, Pre-amended 20172019 CBA art. 40, and the 2015-2017 CBA art. 40, and
other cited provisions of the CBAs, and actions pursuant thereto, on their face and as applied, violate the
First Amendment to the United States Constitution,
as secured against state infringement by the Fourteenth Amendment to the United States Constitution
and 42 U.S.C. § 1983, because they permit and compel
the State to deduct union dues/fees from Plaintiffs’ and
class members’ wages even though they have not
clearly and affirmatively consented to the deductions
by waiving the constitutional right to not fund union
advocacy, and/or because they force Plaintiffs and
class members to maintain union membership over
their objection, and are unconstitutional and of no
effect;
91. Preliminary injunction and/or Temporary
Restraining Order: issue a preliminary injunction
and/or temporary restraining order enjoining Defendants from engaging in any activity this Court declares
is illegal or likely illegal. Plaintiffs and class members
are likely to prevail on the merits, likely to suffer
irreparable harm in the absence of preliminary injunctive relief, the balance of equities tips in Plaintiffs’ and
class members’ favor, and an injunction is in the public
interest.
92. Permanent injunction: issue a permanent
injunction enjoining Defendants from engaging in any
activity this Court declares illegal, including but not
limited to, the deduction of union dues/fees from Plaintiffs’ and class members’ wages, and the continuation
and enforcement of RCW 41.80.100, Amended 2017-

116a
2019 CBA Art. 40.2, 40.3, and 40.6, and other cited
provisions of the CBA, insofar as doing so is unconstitutional and of no effect.
93. Compensatory Damages: enter a judgment
against Defendants awarding Plaintiffs and class
members compensatory damages under Claims 1-6 in
an amount equal to all union dues/fees deducted from
Plaintiffs’ and class members’ wages going back to the
extent of the relevant statute of limitations or the date
each Plaintiff on class member began employment,
whichever is more recent, as well as nominal damages,
mental anguish damages, and restitution;
94. Compensatory Damages: alternatively, enter a
judgment against Defendants awarding Plaintiffs and
class members compensatory damages under Claims
1-5 in an amount equal to the union dues/fees
deducted from Plaintiffs’ and class members’ wages
since they objected to union membership and the payment of any union dues/fees, as well as nominal damages, mental anguish damages, and restitution;
95. Punitive Damages: enter a judgment awarding
Plaintiffs and class members punitive damages
against Defendants based on Claims 1-6 because their
conduct, described above, was and is motivated by evil
motive or intent, or involves reckless or callous indifference to the federal and state rights of Plaintiffs and
class members.
96. Costs and attorneys’ fees: award Plaintiffs
their costs and reasonable attorneys’ fees pursuant to
the Civil Rights Attorney’s Fees Award Act of 1976, 42
U.S.C. § 1988; and
97. Other relief: grant Plaintiffs such other and
additional relief as the Court may deem just and
proper.

117a
Dated: August 23, 2018
By:

s/ James G. Abernathy
James G. Abernathy, WSBA #48801
c/o Freedom Foundation
P.O. Box 552
Olympia, WA 98507
p. 360.956.3482
f. 360.352.1874
jabernathy@freedomfoundation.com
Attorney for Plaintiff

By:

s/ Hannah Sells
Hannah Sells, WSBA #52692
c/o Freedom Foundation
P.O. Box 552
Olympia, WA 98507
p. 360.956.3482
f. 360.352.1874
hsells@freedomfoundation.com
Attorney for Plaintiffs

By:

s/ Caleb Jon Vandenbos
Caleb Jon Vandenbos, WSBA #50231
c/o Freedom Foundation
P.O. Box 552
Olympia, WA 98507
p. 360.956.3482
f. 360.352.1874
cvandenbos@freedomfoundation.com
Attorney for Plaintiffs

118a
CERTIFICATE OF SERVICE
I hereby certify that on August 23, 2018, I electronically filed the foregoing with the Clerk of the Court
using the CM/ECF system which will send notification
of such filing to all counsel/parties of record. I hereby
certify that no other parties are to receive notice.
Dated: August 23, 2018
By: s/James Abernathy
James Abernathy, WSBA #48801

